f i na n c i a l s tat e m e n t s           F ISC A L 2010




                          M A R C H 2 0 11
                                                                            Table of Contents

                    THE LIBRARY OF CONGRESS
                  Financial Statements for Fiscal Year 2010

                            TABLE OF CONTENTS
                                                                                 PAGE

MANAGEMENT’S DISCUSSION AND ANALYSIS

    Introduction                                                                       1
    The Library of Congress and Its Mission                                            1
    Strategic Plan                                                                     1
    Brief History                                                                      1
    The Library of Congress Today                                                      3
    Overview of Financial Statements                                                   4
    Key Performance Targets and Accomplishments                                       10
    Internal Control Program, Systems, Controls and Legal Compliance                  17
    Limitations of the Financial Statements                                           17

FINANCIAL STATEMENTS AND NOTES

    Consolidated Balance Sheets                                                       18
    Consolidated Statements of Net Costs                                              19
    Consolidated Statements of Changes in Net Position                                20
    Combined Statements of Budgetary Resources                                        21
    Notes to the Consolidated Financial Statements                                    22

MANAGEMENT REPORT

    Assessment of Condition of Heritage Assets                                        50

REPORT OF INDEPENDENT AUDITORS

    Results of the Library of Congress FY 2010 Financial Statements Audit             51
    Independent Auditor’s Report                                                      53




                                                                                            i
                                                                             Management’s Discussion and Analysis



                             THE LIBRARY OF CONGRESS
                             Management’s Discussion and Analysis
                                      Fiscal Year Ended September 30, 2010


                                                  Introduction
The Management’s Discussion and Analysis (MDA) is designed to provide a high level overview of the Library:
who we are, what we do, and how we accomplished our mission during fiscal year 2010.


                                The Library of Congress and Its Mission
The Library of Congress, an agency in the legislative branch of the government, is the world's largest and most
comprehensive library, managing 92 collections – many of them having unique and irreplaceable items – in more
than 470 languages. It directly serves not only the Congress, but also the entire nation with the most important
commodity of our time: information.

The Library's mission is to make its resources available and useful to the Congress and the American people and to
sustain and preserve a universal collection of knowledge and creativity for future generations.


                                                 Strategic Plan
The Strategic Plan contains five discrete institution-wide strategic goals: Content, Customers, Outreach,
Organization and Workforce. Through its strategic plan, the Library of Congress charts a course for achieving
measurable results and codifies its accountability to the American public and their elected representatives.

The strategic plan’s goals not only set broad outcomes that each of the ten major organizations relate to, but also
establish broad strategies to be followed and define performance indicators to determine progress toward achieving
the goals and outcomes. Supported by a rigorous annual program performance planning process, and regular
program performance assessment reviews, the strategic plan ensures Library organizations are all working toward
common ends and provides the background guidance for the Library’s annual Congressional Budget Justification
requests.

During fiscal year 2010 the Library worked to develop the Library’s new Strategic Plan. Along with a new mission
and more intuitive structure, the plan includes result statements and related annual objectives that will be
implemented beginning fiscal year 2011.


                                                 Brief History
At the dawn of the 19th century, the American Republic was still little more than a bold experiment. Barely a decade
removed from the establishment of constitutional democracy, our lasting future as a nation was not yet assured and
our national character was only beginning to emerge.

It was in this context that the U.S. Congress created what would become one of the greatest and most distinctly
American institutions. Mindful of the link between an informed people and functional governance, the Congress in
1800 established the Library of Congress by appropriating $5,000 to purchase a collection of 740 books and three
maps.

President Thomas Jefferson would make early and indelible contributions to the growing Library, signing a law in
1802 defining the institution’s roles and functions, creating the first joint congressional committee (the Joint
Committee on the Library) and establishing the position of Librarian of Congress.



                                                                                                                       1
Management’s Discussion and Analysis



    After the British burned the Capitol during the War of 1812, destroying the Library’s collection of some 3,000
    volumes, it was Jefferson who again would help ensure that the Library of Congress would endure as a central
    contributor to American democracy, culture and intellect. Accepting the now-retired president’s offer to
    “recommence” the Library, the Congress in 1815 purchased Jefferson’s 6,487-volume personal collection (then the
    finest in America) at a price of $23,950. It contained books in many languages and on a wide variety of topics,
    reflecting Jefferson’s belief that there was “no subject to which a Member of Congress might not have occasion to
    refer.”

    While its origins were humble, six key milestones in the Library’s early decades significantly expanded its scope
    and reach:

           The establishment of the Law Library in 1832 as the first department of the Library of Congress recalled
            the Library’s origins as a collection of law books to support the legislative work of the Congress. The Law
            Library remains the only source for the Congress for research and reference services in foreign,
            comparative, and international law.

           The Copyright Law of 1870 centralized the nation’s copyright functions in the Library and stipulated that
            two copies of every book, pamphlet, map, print, photograph, and piece of music registered for copyright in
            the United States be deposited in the Library. The law reflected Jefferson’s aspirations for the Library as a
            universal repository of knowledge.

           In 1886, the Congress authorized the first separate Library of Congress building to contain openly
            accessible reading rooms and exhibition space for the general public. In 1897, the Thomas Jefferson
            Building officially opened to the public.

           In 1902, the Congress authorized the Library to sell copies of its cataloging records inexpensively to the
            nation's libraries, thus substantially subsidizing the entire American library system.

           In 1914 the Congress created the Legislative Reference Service (LRS) as a separate entity within the
            Library to provide specialized services to “Congress and committees and Members thereof.” Additional
            laws enhanced its mission in 1946 and 1970, when it was renamed the Congressional Research Service.

           In 1931, the Congress established a program in the Library to create and supply free library materials to
            blind and physically handicapped readers throughout the country.

    In addition, Congress since the mid-1970s has statutorily created 10 programs that have further enhanced the
    Library’s national role.

           American Folklife Center (1976)
           American Television and Radio Archives (1976)
           National Center for the Book (1977)
           National Film Preservation Board (1988)
           National Film Preservation Foundation (1996)
           Cooperative Acquisitions Program Revolving Fund (1997)
           Sound Recording Preservation Board and Foundation (2000)
           Three revolving funds for fee services (2000)
           National Digital Information Infrastructure and Preservation Program (NDIIPP) (2000)
           Digital Collections and Educational Curricula Program (2005)

    Of these programs, the NDIIPP was the most ambitious, as Congress tasked the Library with developing a plan and
    leading an effort to ensure that important digital materials can be preserved for our national information reserve.
    The NDIIPP program demonstrates the foresight of the Congress in its imperative to preserve critical data that
    typically exists in an unstable and transient environment.




2
                                                                                Management’s Discussion and Analysis



                                       The Library of Congress Today
Today, as the Library of Congress advances further into its third century, there is still no more fitting a symbol of its
vision and aspirations than the Library’s 1897 building that bears Jefferson’s name. Constructed as a projection of
American optimism near the turn of the 20th century, the Thomas Jefferson Building is resplendent with iconography
and written inspirations that describe the Library’s past and, more importantly, guide its future.

The gilded Torch of Knowledge surmounts the building, while directly beneath on the underside of the dome is the
mural Human Understanding, embodied by a woman removing the veil of ignorance from her eyes. Below the
dome is the magnificent Main Reading Room, which was the Library’s original means of providing the information
that is critical to an informed citizenry.

As the Library of Congress extends its reach in the modern era, an information revolution is empowering not just
countries and companies, but also individuals in the farthest reaches of the globe. Our mission remains the same,
but it is more important than ever when set against a landscape of dynamism and intense international competition.

In his June 2005 testimony to Congress, Librarian of Congress James H. Billington said: “Libraries are inherently
islands of freedom and antidotes to fanaticism. They are temples of pluralism where books that contradict one
another stand peacefully side by side on the shelves, just as intellectual antagonists work peacefully next to each
other in reading rooms.”

Those words hearken back to the Library’s early days and Thomas Jefferson’s vision of a society wherein the widest
variety of information was readily available to the greatest possible number of people. “I feel … an ardent desire,”
Jefferson said, “to see knowledge so disseminated through the mass of mankind that it may, at length, reach even the
extremes of society; beggars and kings.” (Thomas Jefferson: Reply to the American Philosophical Society, 1808.)

Through its strategic plan, the Library of Congress will be accountable to the American public and their elected
representatives, and measured by the results that are achieved. We seek nothing less than to be ardent champions
furthering the cause of human understanding and wisdom.

Past, present and future, the Library of Congress endeavors to remain the preeminent repository of information on a
global scale, an inspiration to future generations, and a celebrant of achievement–-a Torch of Knowledge that
continues as a shining beacon for all the world.

The Librarian of Congress, appointed by the President with the advice and consent of the Senate, directs the Library.
The Chief of Staff manages the day-to-day operations through five service units and an enabling infrastructure (see
organizational chart).

The Library’s programs and activities are primarily funded by four salaries and expenses (S&E) appropriations (the
National and Law Library Services, Copyright administration, Congressional Research Service, and Books for the
Blind and Physically Handicapped), receipts from offsetting collections (Copyright registrations, Cataloging
Distribution Service fees and Law Library Global Legal Information Network (GLIN) receipts), revolving fund
(business-like) income, donations and investment income.




                                                                                                                            3
Management’s Discussion and Analysis



                                   Office of the Inspector General                                                                                                                     Congressional Relations Office
                                                                                                                The Librarian of Congress

                                                                                                                                                                                      Office of the General Counsel
                                Office of Opportunity, Inclusiveness
                                           and Compliance
                                                                                                                        Chief of Staff
                                                                                                                                                                                            Office of Communication
                          Office of Contracts and Grants Management
                                                                                                                                                                            Office of Special Events and Public Programs


                                                                                                                                                                                             Development Office



              Congressional Research Service                                                     Copyright Office                   Law Library                         Library Services                          Office of Strategic
                                                                                                                                                                                                                  Initiatives
      •Office of the Director               •Counselor to the Director                •Office of the Register                    •Office of the Law Librarian   •Office of the Associate Librarian

                                            •Finance & Administration                                                            •Law Library Services          •Acquisitions & Bibliographic Access              •Office of the Associate Librarian
      •American Law                                                                   •Acquisitions Division                      Directorate
                                                                                                                                                                •Collections & Services                           •Digital Initiatives
      •Domestic Social Policy               •Congressional Information &              •Registration & Recordation Program        •Legal Research Directorate
                                             Publishing                                                                                                         •Partnerships & Outreach Programs                 •Information Technology Services
      •Foreign Affairs, Defense and Trade                                             •Information & Records Division
                                            •Information Management &                                                                                           •Technology Policy                                •National Digital Information
      •Government & Finance                  Technology                               •Receipt Analysis & Control Division                                                                                         Infrastructure Preservation Program
                                                                                                                                                                •Administrative Services
                                                                                                                                                                                                                  •Teaching with Primary Sources
      •Resources, Science & Industry        •Workforce Management &                   •Licensing Division                                                       •National Audio-Visual Conservation Center
                                             Development
      •Knowledge Services Group                                                       •Copyright Royalty Judges                                                 •American Folklife Center

      •Administrative Operations

      •Communications Office

      •Review Office                                                                               Management Support Services



              Office of the Chief Financial Officer                        Human Resources Services                              Integrated Support Services                       Security and Emergency
                                                                                                                                                                                   Preparedness
                                                                           •Office of Director
                    •Office of the CFO
                                                                           •Workforce Performance & Development                   •Office of Director                          •Office of Director
                    •Strategic Planning Office
                                                                           •Workforce Acquisitions                                •Facility Services                           •Personnel Security Office
                    •Budget Office
                                                                           •Workforce Management                                  •Health Services                             •Emergency Preparedness Office
                    •Accounting Operations Office
                                                                           •Worklife Services Center                              •Logistics Services                          •Protective Services
                    •Financial Reports Office
                                                                           •Strategic Planning & Automation                       •Office Systems Services
                    •Disbursing Office
                                                                                                                                  •Safety Services




    Library Services includes the National Library Service for the Blind and Physically Handicapped (within
    Partnerships and Outreach Programs); program costs are reported under the National Library Program.

    The Office of Strategic Initiatives includes Information Technology Services; program costs are reported under the
    National Library Program and infrastructure costs are allocated.


                                                                             Overview of Financial Statements
    For fiscal years 2010 and 2009, the Library has prepared Consolidated Balance Sheets, Consolidated Statements of
    Net Costs, Consolidated Statements of Changes in Net Position, and Combined Statements of Budgetary Resources.

    Consolidated Balance Sheets

    The purpose of the consolidated balance sheet is to provide financial statement users with information about the
    Library’s assets, liabilities, and net position as of September 30, 2010 and 2009. In accordance with generally
    accepted accounting principles for federal government entities, the value of the Library’s collections (our largest
    asset) is not calculated and reported with a monetary value. Instead, the Library reports unit measurement, mission
    and acquisition information in the financial statement notes (see Section 2), and provides other relevant information
    about their use, preservation, security, etc. in supplemental information (see Section 3). The Library’s Net Position
    consists of: (1) the portion of the Library’s appropriations that are unexpended; and (2) the cumulative balances of
    gift, trust, revolving and reimbursable funds.




4
                                                                                                                          Management’s Discussion and Analysis


                                                                                                                          (in millions)
                                                        Assets                                           FY 2010                          FY 2009
                   Entity Assets                                                                          $      578.8                    $    569.7

                   Total Assets                                                                              $            578.8           $    569.7

                               Liabilities and Net Position                                              FY 2010                          FY 2009
                   Liabilities Covered by Budgetary Resources                                             $      126.4                    $    120.8
                   Liabilities Not Covered by Budgetary Resources                                         $       35.6                          34.0
                   Total Liabilities                                                                      $      162.0                    $    154.8
                   Net Position                                                                                  416.8                         414.9
                   Total Liabilities and Net Position                                                     $      578.8                    $    569.7

The Library’s assets total $578.8 million for fiscal year 2010 and $569.7 million for fiscal year 2009. Entity assets
increased by $9.1 million during fiscal year 2010 primarily due to an increase in the market value of Library
investments and pledges receivable. The Library’s liabilities total $162.0 million and $154.8 million for fiscal years
2010 and 2009, respectively. Significant liabilities include funds advanced from other governmental agencies for
the FEDLINK and other intra-governmental revolving fund programs and accounts payable for various operating
expenses.

In general, the accompanying Balance Sheets do not include the acquisition and improvement costs of the Library's
buildings and grounds. By law, these buildings and grounds are under the structural and mechanical care of the
Architect of the Capitol.

Consolidated Statements of Net Costs

The purpose of the Consolidated Statements of Net Costs is to provide financial statement users with information
about the costs and earned revenues for the Library’s six programs for the fiscal years ended September 30, 2010
and 2009. In other words, the statements present the net costs of our programs $803.0 million and $736.4 million
for the fiscal years 2010 and 2009, respectively. Net costs include allocated management support costs (e.g., human
resources, financial services, facility services).

The net costs for each of the Library’s six programs are:

                                             Consolidated Statement of Net Costs
                                                                               (in m illions)
                                     Fiscal Year 2010 - $803.0M                                 Fiscal Year 2009 - $736.4M
                    $457.7
        $500 $481.0

        $450
        $400

        $350

        $300
        $250

        $200                                                                   $148.4 $139.4
        $150
                                                                                                    $89.4
        $100                                                         $43.9                                    $52.0
         $50                          $25.5 $25.0 $42.8                                                                      $15.9 $18.5

           $0
                Nat ional Libr ary       Law Librar y       Copy rigt Office      Congressioinal    Nat'l L ib Serv for     Reimbursing and
                                                                                 Research Service   Blind & Pys Hand        Revolving Funds




                                                                                                                                                            5
Management’s Discussion and Analysis



    National Library - With net program costs of $481.0million and $457.7 million for fiscal years 2010 and 2009,
    respectively, National Library is the Library’s largest program and is responsible for the traditional library activities
    of acquisitions, cataloging, research and reference, and preservation.

    National Library manages the following programs and services:
        Acquisitions – Each year the Library acquires more than two million new items in all formats for addition to its
        priceless collections, which are the largest and most wide-ranging of any library in the world. The collections,
        and the information they contain, are the foundation for the many services the Library provides to the Congress
        and the nation.

        Cataloging – The Library produces bibliographic records, standards, and related products for the Library as
        well as for libraries and bibliographic utilities in all fifty states and territories and many other countries.

        Research and Reference – The Library makes available to scholars and other researchers vast information
        resources, many of which are unique, covering almost all formats, subjects, and languages. The Library
        provides reference assistance to researchers and the general public, conducts field research, and promotes the
        preservation of American culture throughout the United States. The Library responds to nearly 483,000
        information requests a year from across the nation, including nearly 162,000 in person in the reading rooms
        open to the public in Washington. In addition, the Library responds to approximately 58,400 free interlibrary
        loan requests from across the nation and 35,700 requests for book loans from the Congress each year.

        Online Access Services – The Library provides free online access via the Internet to its automated information
        files, which contain records – to Congressional offices, federal agencies, libraries, schools, and the public.
        Internet-based systems include three World Wide Web (WWW) services (e.g., THOMAS, www.loc.gov), the
        Library of Congress Online Public Access Catalog (http://catalog.loc.gov), and various file transfer options.

        American Creativity – The Library manages the nation’s largest, most varied, and most important archival
        collection of American creativity including motion pictures, sound recordings, maps, prints, photographs,
        manuscripts, music, and folklore covering a wide range of ethnic and geographic communities.

        Preservation – The Library manages a continuing program to preserve and extend the life of the diverse
        materials and formats in the Library's collections. The program provides a full range of prospective and
        retrospective preservation treatment for hundreds of thousands of items a year; conducts research into new
        technologies; emphasizes preservation techniques including proper environmental storage and training for
        emergency situations; conserves and preserves materials; and reformats materials to more stable media. The
        Library plays a key role in developing national and international standards that support the work of federal, state,
        and local agencies in preserving the nation's cultural heritage.

        Reading Promotion and Outreach – The Library promotes books, reading, and literacy through the Library's
        Center for the Book, its affiliated centers in 50 states and the District of Columbia, and more than 80 national
        organizational partners. The Library encourages knowledge and use of its collections through other outreach
        programs (cable TV, lectures, publications, conferences and symposia, exhibitions, poetry readings – all
        primarily supported by private funding) and through use of the Library's home page on the World Wide Web.
        The Library also gives surplus books annually to qualified libraries and nonprofit educational institutions
        through its nationwide donation program. Finally, the tenth National Book Festival was held on September 25,
        2010, on the National Mall and set a new attendance record with an estimated 150,000 attendees.

        Digital Initiatives – The Library oversees and coordinates cross-institutional digital initiatives, including the
        NDIIPP, thereby ensuring access over time to a rich body of digital content through the establishment of a
        national network of committed partners, collaborating in a digital preservation architecture with defined roles
        and responsibilities.

    Law Library – The Law Library of Congress, with net program costs of $25.5 and $25.0 million for fiscal years
    2010 and 2009, respectively, provides direct research service to the Congress in foreign, international, and
    comparative law. In addition to Members, Committees of the Congress and the Congressional Research Service, the


6
                                                                                Management’s Discussion and Analysis


Law Library provides officers of the legislative branch, Justices of the Supreme Court and other judges, members of
the Departments of Homeland Security, State and Justice, and myriad other federal agencies with bibliographic and
informational services, background papers, comparative legal studies, legal interpretations, expert testimony, and
translations. As its congressional priorities permit, the Law Library makes its collections and services available to a
diverse community of users, including members of the bench and bar, educational institutions, nongovernmental
libraries, legal service organizations, the diplomatic corps, international organizations, the business community, and
the general public.

Copyright Office (including the Copyright Royalty Board) – The Copyright Office (COP), with net program
costs of $42.8 million and $43.9 million for fiscal years 2010 and 2009, respectively, administers the U.S. copyright
laws, provides copyright policy analysis to the Congress and executive branch agencies, actively promotes
international protection for intellectual property created by U.S. citizens, and provides public information and
education on copyright. In fiscal year 2010, the COP registered 636,527 claims to copyright; transferred 814,243
works to the Library; recorded 8,985 documents containing more than 294,000 titles; logged approximately
24,015,000 page views on its web site; and responded to 315,886 in-person, telephone and e-mail requests for
information. The Copyright Royalty Board (CRB), composed of three Copyright Royalty Judges and their staff
under the aegis of the Librarian of Congress, directed distribution of hundreds of millions of dollars in royalties that
are collected under various compulsory license provisions of the copyright law, and adjusts the royalty rates of these
license provisions. Registration fees and authorized deductions from royalty receipts fund almost half of the COP.
Copies of works received through the copyright system form the core of the Library’s immense Americana
collections, which provide the primary record of American creativity.

Congressional Research Service – The Congressional Research Service (CRS), with net program costs of $148.4
and $139.4 million for fiscal years 2010 and 2009, respectively, provides non-partisan analytical research and
information services to all Members and committees of the Congress. CRS assists the Congress with its
deliberations and legislative decisions by providing objective, authoritative, non-partisan, and confidential research
and analysis. Serving Congress exclusively, CRS experts work alongside the Congress at all stages of the legislative
process and provide integrated and interdisciplinary analysis and insights in all areas of policy interest. CRS support
takes the form of reports, tailored confidential memoranda, individual consultations and briefings, and formal
seminars.

National Library Service for the Blind and Physically Handicapped (NLS/BPH) – The NLS/BPH, which is part
of Library Services, manages a free national reading program for blind and physically handicapped people –
circulating approximately 26.7 million items a year at no cost to users. This program consists of three segments:

    1.   The Library of Congress selects and produces full-length books and magazines in Braille and on recorded
         disc and cassette and contracts for the production of talking book machines. The NLS/BPH’s fiscal years
         2010 and 2009 net program costs for this segment were $89.4 and $52.0 million, respectively.

    2.   A cooperating network of regional and subregional (local) libraries distribute the machines and library
         materials provided by the Library of Congress.

    3.   The U.S. Postal Service receives an appropriation to support postage-free mail for magazines, books, and
         machines, which are sent directly to readers. Reading materials (books and magazines) and playback
         machines are sent to a total readership of 588,220 audio and Braille readers registered individually, in
         addition to 259,536 eligible individuals located in institutions.

Revolving and Reimbursable Funds – Under the authority of 2 U.S.C. 182, the Library operates the Cooperative
Acquisitions Program revolving fund, the revolving fund for duplication services associated with the Packard
Campus for Audio-Visual Conservation, the revolving fund for gift shop, decimal classification, photo duplication,
special events and public programs and related services, and the revolving fund for the Federal Library and
Information Network (FEDLINK) program and Federal Research program. 2 U.S.C. 182 was amended in fiscal
year 2003 to authorize the Library’s special events and programs activities under the revolving fund statute.
Through these activities, the Library is able to further its programs dealing with the acquisition of library materials,
reader and reference services, and support for public programs. The Library also provides reimbursable accounting
services for five legislative agencies under cross-servicing agreements (i.e., the Congressional Budget Office, the


                                                                                                                           7
Management’s Discussion and Analysis


    Office of Compliance, the Abraham Lincoln Bicentennial Commission, the Open World Leadership Center, and the
    United States Capitol Police).

    After reflecting earned revenues of $94.3 and $83.4 million in fiscal years 2010 and 2009, respectively,
    reimbursable and revolving fund net program costs totaled $15.9 and $18.5 million, respectively. The net program
    costs were the result of the elimination of $7.3 and $7.4 million of intra-Library net revenues, $9.0 and $10.1 million
    in allocated administrative overhead, $2.2 and $2.0 million for both fiscal years in imputed inter-governmental costs
    (e.g., employee benefits) not recovered by fees charged by the revolving funds for fiscal years 2010 and 2009,
    respectively.

    General descriptions of major revolving fund activities are:

        Cooperative Acquisitions Program – The Cooperative Acquisitions Program, which is operated by the
        Library’s six overseas field offices, acquires foreign publications and research materials on behalf of
        participating institutions on a cost-recovery basis. Earned revenues were $2.9 million for fiscal year 2010 and
        $2.9 million for fiscal year 2009.

        Duplication Services – Duplication Services provides preservation services for the Library's audio and visual
        collections, and products are also produced for sale to the general public. Earned revenues for fiscal years 2010
        and 2009 were $0.1million and $0.1 million, respectively.

        Gift Shop, Decimal Classification, Document Reproduction and Microfilm Services, Special Events and
        Programs and related services – This revolving fund provides for the operation of a gift shop or other sales of
        items associated with collections, exhibits, performances, and special events of the Library of Congress;
        decimal classification development services; the preservation and microfilming services for the Library's
        collections and reproduction services to other libraries, research institutions, government agencies, and
        individuals in the United States and abroad; and the hosting of special events and programs by corporate and
        non-profit entities that support the Library’s mission. Earned revenues were $6.1 million and $5.8 million in
        fiscal years 2010 and 2009, respectively, and intra-Library transactions of $1.3 million and $1.2 million were
        eliminated during consolidation.

        The FEDLINK program and Federal Research program (FRP) – FEDLINK serves federal libraries and
        information centers as their purchasing, training and resource-sharing consortium. As the Federal Library and
        Information Center Committee (FLICC) business subsidiary, the program provides cost effective access to an
        array of automated information and retrieval, print serials, books, electronic publications and preservation
        services. FEDLINK contracts with more than 130 major vendors to provide services to federal offices
        participating in the program, saving the offices in cost avoidance benefits and in vendor volume discounts. FRP
        provides customized research services that the Library is uniquely able to perform as a result of its collections
        and the subject and language expertise of its staff. A popular FRP product, available on-line via the Library's
        home page, is the country study series of books. In fiscal years 2010 and 2009, earned revenues were $87.9 and
        $78.0 million, respectively, and intra-Library transactions of $1.0 million and $0.8 million were eliminated
        during consolidation.

    Consolidated Statements of Changes in Net Position

    The purpose of the Consolidated Statements of Changes in Net Position is to provide financial statement users with
    information about the Library’s financing sources and the components of the changes in net position. The Library’s
    financing sources totaled $812.9 million and $738.3 million for the fiscal years ended September 30, 2010 and 2009,
    respectively.




8
                                                                                Management’s Discussion and Analysis



                     Consolidated Statements of Changes in Net Position
                                          Total Financing Sources
                                                  (in millions)
                         Fiscal Year 2010: $812.9M              Fiscal Year 2009: $738.3M


            $700     $642.9 $588.4

            $600
            $500

            $400

            $300
            $200                                                $102.7 $92.1
                                            $58.7 $59.6                                       -$1.8
            $100                                                                       $8.6

               $0
           -$100
                    Appropriations          Donations       Imputed Financing        Other Non
                          Used                                                   Exchange Revenue


The major source of the Library’s funding is from Congressional appropriations for five programs: National Library,
Law Library, Copyright Office, Congressional Research Service, and National Library Service for the Blind and
Physically Handicapped. Appropriations used during the fiscal years ended September 30, 2010 and 2009 totaled
$642.9 and $588.4 million or 79 and 80 percent for fiscal years 2010 and 2009, respectively, of all financing. Along
with appropriations made directly to the Library, other government agencies (i.e., the Architect of the Capitol, the
Office of Personnel Management [OPM], Government Printing Office, U.S. Treasury, and U.S. Capitol Police) used
Congressional appropriations and other financing sources to provide support for the Library’s programs totaling an
estimated $102.7 and $92.1 million (imputed financing) for fiscal years 2010 and 2009, respectively. The support
provided included structural care and maintenance of the Library’s buildings and grounds ($59.9 million and $58.1
million), employee benefits ($38.4 million and $30.9 million), acquisitions exchange services ($1.2 million and $2.3
million), legal claims ($1.8 million and $0.8 million) and collections security services ($1.3 million for fiscal year
2010). Other non-exchange revenues are positive and negative for fiscal years 2010 and 2009, primarily due to the
unrealized loss or gains on non-treasury investments.

Combined Statements of Budgetary Resources

The Combined Statements of Budgetary Resources and the related disclosures provide information about how
budgetary resources were made available, as well as their status at the end of the period. The Budgetary Resources
section of the statement presents the total budgetary resources available to the Library. The Status of Budgetary
Resources section of the statement presents information about the status of budgetary resources at the end of the
period. Finally, the Outlays section presents the total outlays of the Library and relates obligations incurred to total
outlays.

The Library’s budgetary resources were $2.1 billion and $2.3 billion for the fiscal years ended September 30, 2010
and 2009, respectively, of which $0.7 billion and $0.6 billion were from appropriated funds and $1.4 billion and
$1.7 billion were from non-appropriated funds for fiscal years ended September 30, 2010 and 2009, respectively.
Total outlays of $1,838.0 million and $869.9 million were incurred with the outlays of appropriated funds ($639.9
million and $583.4 million) combined with outlays of the non-appropriated funds ($1.2 billion and $286.4 million)
in fiscal years 2010 and 2009. The increase in non-appropriated outlays is due to a transfer of $1.2 billion in assets
from the Copyright Licensing Fiduciary Special Fund which was in the budget to the Copyright Licensing Fiduciary
Deposit Fund which is not in the budget, as authorized by OMB and US Treasury.




                                                                                                                           9
Management’s Discussion and Analysis


                               Key Performance Targets and Accomplishments

     Continuing the process begun in the fiscal 2009 Budget Justification, the Library used a performance-focused
     approach toward describing the results we planned to achieve in fiscal 2010. To ensure the proper focus, Library
     organizations connected their annual plans to the goals and outcomes of The Library of Congress Strategic Plan,
     Fiscal Years 2008 - 2013. The key fiscal 2010 performance targets listed below are grouped by their connection to
     the Library’s five strategic plan goals: Content, Customers, Outreach, Organization, and Workforce. These targets
     are not an exhaustive list of everything tracked and measured by Library organizations. Instead, they represent a
     focused selection of management efforts during this year.

     Strategic Plan Goal: Content – Expand and preserve in accessible form a unified and universal body of
     knowledge and creativity.

         Performance Target: Copyright Office (COP) – Increase the number of digitized pre-1978 historical records
         available online by at least 10 million, by September 30, 2010.

             Accomplishment: COP digitized 3.8 million records in fiscal 2010 – 2.4 million assignment catalog cards
             and 53 volumes of the Catalogs of Copyright Entries representing approximately 1.4 million registrations.
             The number of records is lower than originally estimated because COP engaged in more quality control
             activities than was originally expected. Early in fiscal 2010, COP decided to focus resources on
             determining quality standards. While this process decreased the number of records digitized in fiscal 2010,
             COP believes that its records will be better preserved for the future because of the quality standards.

         Performance Target: Copyright Royalty Judges (CRJ) – Keep copyright regulations related to CRJ
         responsibilities in 37 CFR Chapter 3 current and appropriate through annual review and issuance of new
         regulations within 6 months after final comments.

             Accomplishment: CRJ has reviewed regulations related to its responsibilities throughout the fiscal year
             and kept them current.

         Performance Target: Congressional Research Service (CRS) – At least 96 percent of active policy research
         products will address policy issues on the CRS research agenda during fiscal 2010.

             Accomplishment: Following a review of its active products, CRS achieved a 97 percent association rate
             between active policy research products and the agenda as of September 30, 2010. Meeting this target
             helped ensure that CRS research products were aligned to congressional policy-making needs.

         Performance Target: Law Library (LAW) – Add 600 U.S. legal instruments to the Global Legal Information
         Network (GLIN) database in fiscal 2010.

             Accomplishment: In fiscal 2010 LAW added a total of 463 U.S. legal instruments to the GLIN database,
             about 77 percent of the 600 instruments target. LAW was unable to dedicate a full-time resource to this
             effort until the fourth quarter. Once the full-time resource became available, the rate of adding instruments
             to the database increased.

         Performance Target: Library Services (LS) – To complement copyright deposits in fiscal 2010, employ
         strategic collecting policies using overseas and other sources to enhance the area studies collections.

             Accomplishment: Through Library Services’ acquisitions efforts during fiscal 2010, Congressional and
             other Library users have access to almost 737 thousand additional tangible items acquired for the area
             studies collections by purchase, exchange, or gift. Those users can also access at least 15 very large
             aggregators or databases, consisting of more than 150 thousand additional digital items, in area studies.
             The fiscal 2010 acquisitions particularly strengthened the Library's coverage of contemporary and historical
             China, Korea, Russia, and Middle Eastern countries.




10
                                                                          Management’s Discussion and Analysis


Performance Target: LS – Purchase 1.235 million collection items in all formats using the appropriation
Books for the General Collections (GENPAC) and Books for the Law Library (LAW).

    Accomplishment: Congressional and other Library users are now supported by the addition of more than
    1.4 million analog and digital collection items of high research value. The GENPAC fund purchased 773
    thousand analog items and more than 500 thousand digital items for the area studies, special format, and
    general collections. The LAW fund purchased 115 thousand items for the Law Library of Congress
    collections.

Performance Target: LS – Provide appropriate cataloging for items selected for the Library of Congress
collections within one year of receipt.

    Accomplishment: Library users can now discover more than 840 thousand new books, periodical issues,
    maps, and other tangible items received during the year via the LC catalog on-site or over the World Wide
    Web. Users can also view more than 500 thousand digital items via the LC Electronic Resources Online
    Catalog. The ABA Directorate provided appropriate cataloging for 366 thousand tangible items (books,
    microforms, and CD-ROMs) selected for the Library’s collections and added more than 414 thousand serial
    issues (loose periodicals) to existing catalog records. The Music Division cataloged 24 thousand items, the
    Geography and Map Division cataloged 7 thousand, and the Prints and Photographs Division cataloged 31
    thousand. E-books and e-journals were cataloged by means of records purchased from Serial Solutions, Inc.
    All items were catalogued within one year of their receipt.

Performance Target: LS – Move 25 percent of those items ultimately scheduled for transfer from Capitol Hill
and Landover Annex to Ft. Meade Modules 3, 4 and the Cold Storage Rooms during 2010 achieving 100
percent accuracy in shelf location.

    Accomplishment: In fiscal 2010, the Collections Access Loan and Management Division (CALM)
    focused on the transfer of Library materials to the state-of-the-art facilities at Ft. Meade. In addition to
    transferring items from the General, Area Studies, and Law Library collections to Ft. Meade Modules 1 and
    2 throughout the year, CALM took advantage of delays in the special collections Modules 3 & 4 transfer
    ramp-up and established a "surge" program, which resulted in the transfer of a significant number of
    volumes to Module 2. During the last four months of fiscal 2010, CALM concentrated on transferring
    special format collections to Ft. Meade. By the close of the fiscal year, a total of 877 thousand items from
    both the book and special format collections had been inventoried and the majority of them were
    transferred to Ft. Meade. For the special format collections, CALM had transferred 220 thousand reels of
    microfilm masters in 21 thousand, twelve-reel boxes; nearly 4 thousand folders of maps, 21 thousand
    manuscript containers, and 600 containers of microfiche as well as a number of smaller collections by the
    end of fiscal 2010. Forty-seven thousand of 237 thousand containers were transferred, representing 19.8
    percent of the total scheduled for transfer. CALM achieved the shelf-location accuracy target.

Performance Target: LS – House 200 thousand books, photographs, manuscripts, maps, serials, and other
items (designated by the special and general collections divisions) in polyester film, folders, mats, boxes and
other containers, by the end of the fiscal year, to protect them from damage caused by handling, light, and
fluctuating environments while in use, storage, display or transit.

    Accomplishment: In fiscal 2010, the Preservation Directorate rehoused a total of 360 thousand items.
    Items rehoused included bound volumes, unbound paper items, photographs, audio visual material, and
    other formats. Highlights of the rehousing efforts included: completing refoldering the American map
    collection, rehousing over 260 thousand maps and 70 county atlases, and rehousing the Woodrow Wilson
    Presidential Papers Series 2, consisting of 253 legal-sized document storage boxes.

Performance Target: LS – Treat 7 million books, pages, photographs, manuscripts, maps, serials, and other
items (designated by the special and general collections divisions) through conservation repair, binding,
reformatting, and/or mass deacidification by the end of the fiscal year, to stabilize them from damage caused by
handling, use, scanning, exhibition, and reformatting, and to provide reformatted surrogates for items too fragile
to use.


                                                                                                                     11
Management’s Discussion and Analysis



           Accomplishment: In fiscal 2010, the Library bound, deacidified, reformatted, or otherwise treated 9.2
           million items. The primary reason for this significant increase in items treated was additional focus on
           microfilming work by the New Delhi Field Office and the Preservation Directorate's effort to reduce
           accumulated microfilming work formerly held at the Photoduplication Service.

       Performance Target: Office of Security and Emergency Preparedness (OSEP) – Maintain the availability of
       the Library's primary access control and intrusion detection system to ensure a secure environment for the
       Library staff, visitors, and collections.

           Accomplishment: The Library maintained availability of the primary security system 100 percent of the
           time during the fiscal year.

       Performance Target: Office of Strategic Initiatives (OSI) – Establish operational benchmarks for relevant
       Content Lifecycle components (produce/go get, inventory, describe, manage and preserve).

           Accomplishments: Operational benchmarks established during fiscal 2010 for key Content Lifecycle
           components include:

                    Produce/Go Get – Information Architecture (IA). The IA strategy developed in fiscal 2010
                    supports the management and delivery of content by providing specifications for the planning of
                    the migration to a new Library web presence including program-specific Information Architecture
                    for legislative and copyright information systems. The IA areas of focus include detailed search
                    and discovery specifications, search engine optimization, content organization, metadata
                    consistency, metrics, and usability analysis.

                    Inventory – New Web Presence. In fiscal 2010 OSI developed a strategy for a new Library of
                    Congress web presence to address the current state of the Library’s online activities, specifically in
                    relation to site fragmentation and the find-ability of content. The new Web Strategy focuses on
                    user-centered delivery of seamless access to collections and services supported by integrated
                    search and navigation and a consistent “look and feel.”

                    Describe – Enhanced Usability Pilot (EUP). OSI Sponsored the EUP to: improve Library
                    website usability, investigating and demonstrating enhanced searching and browsing, improved
                    content and metadata portability. Initial outputs from the EUP were completed in April 2010.

                    Describe – Metadata. Metadata enrichment efforts initiated in 2009 for select content continued
                    during fiscal 2010. Remediation will continue in fiscal 2011 based on Web Governance Board
                    priorities.

                    Manage – e-Deposit. The e-Deposit project focuses on managing digital content received through
                    electronic deposit.

                    Preserve – Repositories. The Repositories Requirements Document developed in fiscal 2010
                    identifies the requirements for the design of enterprise-wide digital repository services to be
                    incorporated into the digital content management components of the Library Enterprise
                    Architecture.

       Performance Target: OSI – Accomplish the long range strategy of measuring customer satisfaction with the
       Library's online content delivery; in fiscal 2010, establish baseline rating.

           Accomplishment: OSI analyzed two years of American Customer Satisfaction survey data supplied by
           over 50 thousand respondents. OSI used the data to identify baseline customer satisfaction scores with the
           Library of Congress web site (as of September 30, 2010) in each of the areas identified below and an
           aggregate satisfaction score which will be used to drive incremental improvements to the Library’s content
           delivery in future years.


12
                                                                               Management’s Discussion and Analysis



             Element:   Content               Baseline: 82
             Element:   Functionality         Baseline: 78
             Element:   Look and Feel         Baseline: 74
             Element:   Navigation            Baseline: 70
             Element:   Search                Baseline: 72
             Element:   Site Performance      Baseline: 83

             Customer Satisfaction Baseline (aggregate rating): 75

Strategic Plan Goal: Customers – Improve our internal and external customers’ experiences in seamlessly finding
and using Library resources.

    Performance Target: COP – Improve processing times for registrations and recordations (comparing year-end
    averages) by 5 percent, by September 30, 2010.

        Accomplishment: For the fiscal year, overall average days measuring all types of claims together
        decreased by 10 percent, reflecting (1) the reduction of the number of processable claims by more than 164
        thousand since December 2009 and (2) the increasing percentage of electronic claims received, which can
        be processed more quickly. The average number of days required to process electronic claims decreased by
        5 percent. While the yearly average of days required for paper claims processing rose by 15 percent for the
        year, a significant reduction began in the 4th quarter.

    Performance Target: CRJ – Set royalty rates and terms that meet statutory deadlines.

        Accomplishment: All CRJ proceedings met statutory deadlines in fiscal 2010. Meeting statutory
        deadlines ensures that rates are set in a timely manner so that royalties can be distributed.

    Performance Target: COP – Decrease processing time to 14 months (from the fiscal 2009 year end
    processing time of 15 months) for standard SA-3 cable statements of account from receipt to public availability,
    by September 30, 2010.

        Accomplishment: COP closed 98 percent of 2009/1 SA-3s, and 80 percent of 2009/2 SA-3s within the 14
        month target time frame. COP continues to improve processing times for statements of account. This
        allows the public to have more timely information on who has paid and how much has been paid into the
        royalty pools.

    Performance Target: COP – Decrease processing time to 6 months (from the fiscal 2009 expected year end
    processing time of 7 months) for standard SA-1-2 (short form) cable statements of account from receipt to
    public availability, by September 30, 2010.

        Accomplishment: COP closed 95 percent of 2009/1 SA1-2s, and 97 percent of 2009/2 SA1-2s within the
        target time frame. COP continues to improve processing times for statements of account. Improved
        processing time allows the public to have more timely information on who has paid and how much has
        been paid into the royalty pools.

    Performance Target: CRS – Create an integrated web site for Congress by the end of fiscal 2010; CRS will
    complete project milestones on time throughout the year.

        Accomplishment: CRS partially implemented key web site functionality by the end of fiscal 2010
        including the ability to relate different types of content to legislative issues and congressional operations
        collections on the CRS web site and maintain those relationships dynamically in the CRS consolidated
        database (rather than manually on individual web pages).




                                                                                                                        13
Management’s Discussion and Analysis


       Performance Target: Integrated Support Services (ISS) – By the end of fiscal 2010, achieve a 42 percent
       year-to-date closure rate of requests for facility-related services tracked through the Facilities Automated
       Services Tracking (FAST) System

           Accomplishment: ISS achieved a 57% closure rate for FAST requests, surpassing its target by 15%. ISS
           worked with the Library's Information Technology Services (ITS) office to enhance the tracking
           capabilities of the FAST system to include reporting the time required for completion of various types of
           work requests, and incorporation of standardized lead times for all services provides, which enables an
           automated assignment of a projected completion date

       Performance Target: ISS – By the end of 2010, achieve an overall customer satisfaction index for ISS
       services of 4.5 out of a possible 5.0.

           Accomplishment: The average customer satisfaction summary rating for ISS was 4.62 in fiscal 2010,
           higher than the fiscal 2009 score of 4.6 and exceeding the fiscal 2010 target of 4.5. Throughout the year,
           customer feedback questionnaires were completed for 31 ISS services through 71 questionnaire
           distributions.

       Performance Target: LAW – Achieve a customer satisfaction rating for the THOMAS website of
       "satisfactory" or better for 2/3 of those responding to an online survey.

           Accomplishments: In fiscal 2010, 2 thousand of the almost 3 thousand (67 percent) THOMAS customers
           completing the online survey reported at least "satisfactory" experiences using THOMAS.

       Performance Target: LAW – Continue to classify the 610 thousand volumes shelved under "LAW" according
       to the Class K schedule, reducing the backlog by 61 thousand volumes each fiscal year.

           Accomplishment: The Law Library classified a total of 41.1 thousand volumes in fiscal 2010, 67 percent
           of the annual number of volumes identified in the target.

       Performance Target: LAW – With GLIN partnerships, attain at least 2,000,000 visits to the GLIN web-based
       system for fiscal 2010.

           Accomplishment: The GLIN web-based system attained 2.1 million visits during fiscal 2010.

       Performance Target: LS – In fiscal 2010 achieve cost savings of $18.2 million for federal libraries and
       information centers through the centralized procurement of library-related services and training.

           Accomplishment: In fiscal 2010, FEDLINK achieved cost savings of $17.7 million. The fiscal 2010 cost
           savings were lower than the fiscal 2010 target of $18.2 million for the following reasons:

                FEDLINK processed more high volume transactions in fiscal 2010 than in 2009. Since FEDLINK
                lowered the fee structure threshold from $300 thousand to $100 thousand in fiscal 2009, more
                customers are taking advantage of the lower fee by becoming larger customers. The total Transfer
                Service Dollars in fiscal 2010 is higher ($87 million) than in fiscal 2009 ($79 million). However, the
                number of transactions was 304 lower in fiscal 2010 (6.5 thousand) than in fiscal 2009 (6.8 thousand).
                The total cost avoidance was slightly lower than the target because the formula used to calculate cost
                avoidance is based on the number of transactions.

       Performance Target: LS – Contract and manufacture 240 thousand Digital Talking Book (DTB) players for
       distribution to patrons.

           Accomplishment: The National Library Service for the Blind and Physically Handicapped (NLS)
           contracted for the manufacture of 238,920 DTB players for distribution to patrons.




14
                                                                              Management’s Discussion and Analysis



    Performance Target: LS – Contract to produce 700 copies each of 2,000 new book titles in digital format for
    the Digital Talking Books program for distribution to patrons.

        Accomplishment: In fiscal 2010, NLS contracted to produce 700 copies each of 2,000 new book titles in
        digital format for the DTB. Nine contracts were awarded in fiscal 2010 to achieve the target.

    Performance Target: LS – Improve access to the collections by 5 percent by the end of fiscal 2010 (as
    measured by the number of catalog searches).

        Accomplishments: The fiscal 2010 target for a five percent increase equated to slightly more than 141
        million searches. The actual increase exceeded the target by 411 thousand.

Strategic Plan Goal: Outreach – Increase awareness of the value and utility of the Library.

    Performance Target: Office of the Librarian (LIBN/O) – The Congressional Relations Office (CRO) will
    provide four monthly briefings/meetings to Members and key Congressional staff by September 30, 2010.

        Accomplishment: CRO exceeded this target in fiscal 2010. The number and scope of regularly scheduled
        meetings with House and Senate oversight staff increased as they requested more briefings by Library staff
        about specific issues and legislation.

    Performance Target: LIBN/O – The Public Affairs Office (PAO) will increase media impressions from the
    baseline of 1 billion in fiscal 2010 by 20 percent per year. PAO will increase the percentage of positive tones of
    media placements from the baseline of 75 percent by 5 percent per year.

        Accomplishment: The Library achieved an estimated 1.5 billion media impressions in fiscal 2010. PAO
        is also working with OSI/Web Services to gather better data regarding usage and impressions driven by the
        Library's social-media pilots. "Tone," while quite subjective, is harder to judge after an expensive media-
        monitoring contract was not renewed, but PAO is working with its new vendor to address this issue.
        Anecdotally, tone remains very positive.

    Performance Target: LS – During fiscal 2010, establish a baseline for the measurement of visitor satisfaction
    with on-site exhibits.

        Accomplishment: In fiscal 2010, Library Services awarded a contract to develop a baseline measurement
        of visitor satisfaction with on-site exhibits. Library Services received the baseline customer satisfaction
        index score for on-site exhibits on September 22, 2010. The baseline score is 83, indicating a high level of
        satisfaction with Library of Congress exhibits.

Strategic Plan Goal: Organization – Increase Library-wide synergies and flexibilities to continuously improve
quality and efficiency of delivery of products and services.

    Performance Target: LS – Increase automation of services through integrated workflows for 52 Library
    Services divisions by the end of 2010.

        Accomplishments: LS completed and documented the workflow interviews for all of its divisions and is
        completing the necessary requirements documentation. From the interviews, LS identified 539 action items.
        Of those, LS closed 60, 45 are in progress, and 135 passed to the directorates for further review. LS
        identified Strategic Business Objectives and those strategic needs will drive the future work to improve
        business workflows.

    Performance Target: Office of the Inspector General (OIG) – Achieve 85 percent acceptance rate on
    recommendations made by the audit division.




                                                                                                                         15
Management’s Discussion and Analysis


             Accomplishment: OIG made 43 audit recommendations during fiscal 2010. Management accepted 40, or
             93 percent.

         Performance Target: OIG – Achieve 100 percent successful adverse actions resulting from administrative
         investigations.

             Accomplishments: OIG made 14 administrative referrals for action during fiscal 2010. All 14 referrals,
             or 100%, were successfully adjudicated.

         Performance Target: OSEP – Maintain the safe and expeditious evacuation of all staff, contractors, and
         visitors from Library facilities as the situation warrants, and verify that all staff have safely evacuated and
         are accounted for. During an emergency evacuation or drill OSEP will verify that staffs have safely evacuated
         the facility where the emergency or drill is taking place. We will strive to attain an accounting of at least 98
         percent of the staff.

             Accomplishments: OSEP continued to maintain safety for staff, contractors, and visitors during
             evacuation drills at the Library during fiscal 2010. A minimum of 98 percent of staff were accounted for in
             all of the emergency evacuation drills (or unplanned evacuations) occurring during the year.

         Performance Target: OSI – Ensure that 100 percent of mission critical moderate and high impact systems
         implemented after August 2004 have completed Certification and Accreditation (C&A).

             Accomplishments: The Library certified and accredited 71 percent of its inventory of systems. Those
             without up-to-date C&As are all in-production systems that require re-certification. One hundred percent
             of new systems underwent C&A before being placed into production.

         Performance Target: OSI – Maintain 99.5 percent availability of core technology backbone of networks,
         storage, and servers.

             Accomplishments: During the year Information Technology Services (ITS) achieved 99.2 percent
             availability. During fiscal 2010, ITS focused on completing the design of new data and network
             infrastructure for the Madison and alternate computer facilities. Data growth in both preservation and
             presentation is increasing dramatically. The new infrastructure will increase the speed, capacity, and
             reliability of the data and network and will be implemented in three phases, one of which was completed
             during the year.

     Strategic Plan Goal: Workforce – Cultivate a talented diverse community of innovators devoted to public service.

             Performance Target: Human Resources Services (HRS) – Increase the number of the Library's
             supervisors developed through the Supervisor Development Program by an annual average of 15 percent.

                 Accomplishments: The Library increased the number of current supervisors trained through the
                 Supervisor Development Program by 19 percent during fiscal 2010, exceeding the target established
                 for the year.

             Performance Target: HRS – Increase number of Library staff receiving education relating to personal
             finance and benefits management by 20 percent.

                  Accomplishments: The Employee Assistance Program and Retirement Education Seminars offered a
                  wide range of financial planning, retirement education, and personal services planning seminars to 395
                  participants as of September 30, 2010, exceeding the target by 1 percent.




16
                                                                              Management’s Discussion and Analysis



              Internal Control Program, Systems, Controls and Legal Compliance

The Library has an internal control program (ICP) that requires annual risk (vulnerability) assessments and periodic
detailed reviews of internal controls based on the results of the vulnerability assessments. The ICP is designed to
ensure that: (1) obligations and costs comply with applicable law; (2) assets are safeguarded against waste, loss,
unauthorized use or misappropriation; (3) revenues and expenditures are properly accounted; and (4) program
activities are carried out in the most efficient, effective, and economical manner possible.

During fiscal year 2010, Library staff performed vulnerability assessments on all of the identified financial and non-
financial modules and assigned, based on an established scoring system, a high, medium or low risk to the modules.
Then, based on risk level, Library staff performed 70 detailed control reviews in fiscal year 2010 to examine the
controls in place in the selected modules. Plans to correct any deficiencies in controls were derived based on the
examination results and will be tracked at an agency level by program officials until the deficiencies are resolved.

The implementation and regular testing of controls allows for Library management to assert that these controls
provide reasonable assurance that the foregoing objectives are met. This testing is performed on the central
financial and reporting systems, along with the subsidiary and program systems and the external financial interfaces
used by the Library. The Library has continued to enhance the central financial system that was implemented in
2004 to improve controls, reduce paper-based transactions, and decrease the number of program and subsidiary
systems.


                                 Limitations of the Financial Statements
The Library's financial statements are the culmination of a systematic accounting process. The statements have been
prepared to report the financial position and results of operations of the Library of Congress, pursuant to the
hierarchy of accounting principles and standards set forth in Note 1 to the Financial Statements. While these
statements have been prepared from the books and records of the Library, they are in addition to the financial reports
used to monitor and control budgetary resources that are prepared from the same books and records. The statements
should be read with the realization that they are for a component of the U.S. Government, a sovereign entity. One
implication of this is that liabilities cannot be liquidated without legislation that provides resources to do so.




                                                                                                                         17
Consolidated Financial Statements

                                    THE LIBRARY OF CONGRESS
                                          Consolidated Balance Sheets
                                             As of September 30, 2010 and 2009

                                                                                              (in thousands)
                                                                                        FY 2010           FY 2009
        ASSETS
             Intragovernmental:
                 Fund Balance with Treasury (Note 2)                                $        350,417    $     350,419
                 Investments (Note 4)                                                         42,583           42,486
                 Accounts Receivable, Net (Note 5.A)                                          11,848           12,100
                 Other Intragovernmental Assets                                                1,023              225
             Total Intragovernmental                                                         405,871          405,230

             Cash and Other Monetary Assets (Note 1.G)                                           169              104
             Pledges Receivable – Donations (Note 5.B)                                        19,208           14,759
             Investments (Note 4)                                                             84,979           78,848
             Inventory and Operating Materials (Note 1.K)                                      1,037            1,042
             Property and Equipment, Net (Note 6)                                             67,015           69,138
             Other Assets                                                                        544              529

            Library Collections (Note 1.M)
        TOTAL ASSETS                                                                $        578,823    $     569,650

        LIABILITIES
             Intragovernmental:
                 Accounts Payable and Accrued Funded Payroll, Benefits              $          6,109    $       5,966
                 Advances from Others                                                         33,091           40,019
                 Accrued Unfunded Workers’ Compensation (Note 9)                               1,756            1,657
                 Other Intragovernmental Liabilities (Note 11)                                   130               61
             Total Intragovernmental                                                          41,086           47,703

             Accounts Payable and Accrued Funded Payroll, Benefits                            74,908           65,108
             Deposit Account Liability                                                         6,920            6,845
             Accrued Unfunded Annual and Compensatory Leave                                   26,295           25,605
             Actuarial Unfunded Workers’ Compensation (Note 9)                                 7,461            6,743
             Other Liabilities (Note 11)                                                       5,291            2,795
             TOTAL LIABILITIES                                                      $        161,961    $     154,799

             Commitments and Contingencies (Note 10)

        NET POSITION
             Unexpended Appropriations – All Other Funds                            $        199,250    $     207,157
             Cumulative Results of Operations – Earmarked Funds (Note 18)                    185,214          173,519
             Cumulative Results of Operations – All Other Funds                               32,398           34,175
             TOTAL NET POSITION                                                     $        416,862    $     414,851

        TOTAL LIABILITIES AND NET POSITION                                          $        578,823    $     569,650


                           The accompanying notes are an integral part of these financial statements.


18
                                                                                    Consolidated Financial Statements

                         THE LIBRARY OF CONGRESS
                          Consolidated Statements of Net Costs
                             For the Years Ended September 30, 2010 and 2009

                                                                                        (in thousands)
                                                                                    FY 2010        FY 2009
NET COSTS BY PROGRAM AREA
   National Library:
      Program Costs                                                             $      485,331    $   461,909
      Less: Earned Revenue                                                              (4,351)        (4,191)
      Net Program Costs                                                                480,980        457,718

   Law Library:
      Program Costs                                                                     25,477         24,986
      Less: Earned Revenue                                                                (15)           (20)
      Net Program Costs                                                                 25,462         24,966

   Copyright Office:
      Program Costs                                                                      81,326         73,886
      Less: Earned Revenue                                                             (38,481)       (30,033)
      Net Program Costs                                                                  42,845         43,853

   Congressional Research Service:
      Program Costs                                                                    148,424        139,411
      Less: Earned Revenue                                                                  (1)            (3)
      Net Program Costs                                                                148,423        139,408

   National Library Service for the Blind and Physically Handicapped:
      Program Costs                                                                     89,401         52,032
      Less: Earned Revenue                                                                  (2)            (4)
      Net Program Costs                                                                 89,399         52,028

   Revolving and Reimbursable Funds:
      Program Costs                                                                     110,135       101,920
      Less: Earned Revenue                                                             (94,255)       (83,446)
      Net Program Costs                                                                  15,880         18,474

NET COSTS OF OPERATIONS                                                         $     802,989     $   736,447




                 The accompanying notes are an integral part of these financial statements.


                                                                                                                  19
Consolidated Financial Statements

                                        THE LIBRARY OF CONGRESS
                             Consolidated Statements of Changes in Net Position
                                              For the Years Ended September 30, 2010 and 2009
                                                                                                            (in thousands)
                                                                    FY 2010                                   FY 2009
                                                     Earmarked     All Other     Consolidated Earmarked      All Other      Consolidated
                                                       Funds        Funds           Total       Funds         Funds            Total
     CUMULATIVE RESULTS OF OPERATIONS
     Beginning Balances                                $173,519      $34,175        $207,694     $177,318       $28,565        $205,883

     Budgetary Financing Sources:
        Appropriations Used                                          642,917         642,917                    588,400          588,400
        Non-exchange Revenue                                443                          443          584                            584
        Donations of Cash or Securities                  16,221                       16,221       15,537                         15,537
        Transfers In/(Out) Without
                                                            382         (277)             105        212           (131)              81
            Reimbursement
        Other                                              3,436                        3,436        232                             232
     Other Financing Sources (Non-exchange):
        Donations of Property and Services                   398      42,118           42,516        569         43,456           44,025
        Transfers – in/out without Reimbursement            (31)          31                0
        Imputed Financing                                  3,719      98,991          102,710       3,231        88,835           92,066
        Other                                              4,559                        4,559     (2,667)                         (2,667)
     Total Financing Sources                              29,127      783,780         812,907      17,698        720,560         738,258
     Net Cost of Operations                             (17,432)    (785,557)       (802,989)    (21,497)      (714,950)       (736,447)
     Net Change                                          11,695        (1,777)          9,918     (3,799)          5,610            1,811

     CUMULATIVE RESULTS OF OPERATIONS                  $185,214      $32,398        $217,612     $173,519       $34,175        $207,694

     UNEXPENDED APPROPRIATIONS
     Beginning Balances
                                                             $0     $207,157        $207,157          $0       $195,373        $195,373

     Budgetary Financing Sources:
        Appropriations Received                               0       643,337         643,337          0         607,096         607,096
        Appropriations Transferred In/(Out)                   0        (1,137)         (1,137)         0          (1,851)         (1,851)
        Other Adjustments                                     0        (7,190)         (7,190)         0          (5,061)         (5,061)
        Appropriations Used                                   0     (642,917)       (642,917)          0       (588,400)       (588,400)
     Total Budgetary Financing Sources                        0        (7,907)         (7,907)         0          11,784          11,784

     TOTAL UNEXPENDED APPROPRIATIONS                          0      199,250         199,250           0        207,157          207,157

     NET POSITION                                      $185,214     $231,648        $416,862     $173,519      $241,332        $414,851




                               The accompanying notes are an integral part of these financial statements.

20
                                                                                          Consolidated Financial Statements

                                  THE LIBRARY OF CONGRESS
                            Combined Statements of Budgetary Resources
                                     For the Years Ended September 30, 2010 and 2009

                                                                                                 (in thousands)
                                                                                       FY 2010                 FY 2009
BUDGETARY RESOURCES
   Unobligated Balance, Brought Forward, October 1                                $         1,291,000    $         1,273,622
   Recoveries of Prior-year Unpaid Obligations                                                 34,432                 21,650
   Budget Authority:
       Appropriation                                                                          667,338               893,416
       Spending Authority from Offsetting Collections:
           Earned:
                Collected                                                                     150,993               132,523
                Change in Receivables from Federal Sources                                        795                   179
           Change in Unfilled Customer Orders:
                Advances Received                                                              (3,808)                  2,939
                Without Advances from Federal Sources                                            (767)                  3,726
   Total Budget Authority                                                                     814,551              1,032,783
   Nonexpenditure Transfers, Net                                                               (1,137)                (1,851)
   Temporarily Not Available Pursuant to Public Law                                                  0                      0
   Permanently Not Available                                                                   (7,190)                (5,090)
TOTAL BUDGETARY RESOURCES                                                         $         2,131,656    $         2,321,114

STATUS OF BUDGETARY RESOURCES
    Obligations Incurred:
        Direct                                                                    $         1,876,804    $           892,330
        Reimbursable                                                                          164,782                137,784
    Total Obligations Incurred                                                              2,041,586              1,030,114
    Unobligated Balance – Exempt from Apportionment                                            71,216              1,276,668
    Unobligated Balance – Not Available                                                        18,854                 14,332
TOTAL STATUS OF BUDGETARY RESOURCES                                               $         2,131,656    $         2,321,114

CHANGE IN OBLIGATED BALANCE
   Unpaid Obligated Balance, Net, Brought Forward, October 1:
       Unpaid Obligations, Brought Forward                                        $            278,013   $           281,300
       Less: Uncollected Customer Payments, Brought Forward                                   (12,492)                (8,587)
   Total Unpaid Obligation Balance, Net                                                        265,521               272,713
   Obligations Incurred, net                                                                 2,041,586             1,030,114
   Less: Gross Outlays                                                                     (1,986,690)           (1,011,751)
   Less: Recoveries of Prior-Year Unpaid Obligations                                          (34,432)              (21,650)
   Change in Uncollected Customer Payments from Federal Sources                                   (29)                (3,905)
   Unpaid Obligated Balance, Net, End of Period:
       Unpaid Obligations                                                                    298,477                278,013
       Less: Uncollected Customer Payments from Federal Sources                              (12,521)               (12,492)
TOTAL UNPAID OBLIGATED BALANCE, NET, END OF PERIOD                                $          285,956     $          265,521

NET OUTLAYS
    Gross Outlays                                                                 $         1,986,690    $         1,011,751
    Less: Offsetting Collections                                                            (147,185)              (135,462)
    Less: Distributed Offsetting Receipts                                                      (1,471)                (6,404)
NET OUTLAYS                                                                  $              1,838,034
                                                                                                  $                  869,885
       (The Library has no Non-Budgetary Credit Program Financing Accounts; all amounts above are Budgetary.)

                         The accompanying notes are an integral part of these financial statements.



                                                                                                                                21
Notes to the Consolidated Financial Statements


         NOTE 1              SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES

     A. Reporting Entity

     The Library of Congress (the Library), a legislative branch agency of the U.S. government, was established in 1800
     primarily to provide information and policy analyses to the members and committees of the U.S. Congress. Since
     then, the Library has been assigned other major missions such as administering the U.S. copyright laws, providing
     cataloging records to the nation's libraries, and coordinating a national program to provide reading material for blind
     and physically handicapped residents of the U.S. and its territories and U.S. citizens residing abroad. The Library
     also provides services to other federal agencies and administers various gift funds and funds accepted and controlled
     by the Library of Congress Trust Fund Board (TFB).

     The Library's programs and operations are subject to oversight by the Joint Committee on the Library, the oldest
     joint committee of the Congress, which is comprised of members of the U.S. House of Representatives and Senate.
     The Library relies primarily on appropriated funds to support its programs and operations. Budget requests are
     subject to review by the House and Senate Appropriations Subcommittees on Legislative Branch Appropriations.
     The Library also receives funds from other agencies for services provided under the Economy Act and other
     statutes. In addition, the Library administers several fee-for-service revolving funds and receives donations from the
     public, which are classified as gifts or funds accepted and controlled by the TFB, which consists of the Librarian of
     Congress (who is Chairman and Secretary of the TFB), the Chairman and Vice-Chairman of the Joint Committee on
     the Library, the Secretary of the Treasury (or an assistant secretary designated in writing by the Secretary of the
     Treasury), and ten additional members appointed by the President (two), the U.S. House of Representatives (four),
     and the U.S. Senate (four).

     Entity activities are those for which the Library has the authority to use the assets. Non-entity activities consist
     primarily of deposit accounts that are not available for use by the Library.


     B. Basis of Presentation
     The accompanying financial statements report the financial position, net costs, changes in net position, budgetary
     resources of the Library for fiscal years 2010 and 2009. These consolidated and combined financial statements
     include the accounts of all funds under the Library's control, which have been established and maintained to account
     for the resources of the Library. They were prepared from the Library's financial management system in accordance
     with Generally Accepted Accounting Principles (GAAP).

     Fiduciary assets are not assets of the Library of Congress and beginning in fiscal year 2009 are not recognized on
     the Balance Sheet, Statement of Net Cost, or Statement of Net Position. See Note 1.R, Accounting Changes and
     Note 21, Fiduciary Activities.

     Material intra-Library transactions and balances have been eliminated from the Consolidated Balance Sheets, the
     Consolidated Statements of Net Cost, and the Consolidated Statements of Changes in Net Position. The Statement
     of Budgetary Resources is presented on a combined basis; therefore, intra-Library transactions and balances have
     not been eliminated from this statement.

     As a legislative branch agency, the Library is not required to follow the executive agency accounting principles
     established by the Comptroller General under 31 U.S.C. 3511 or the standards developed by the Federal Accounting
     Standards Advisory Board (FASAB). However, the Library maintains its fund balances with the Department of the
     Treasury and submits information required to incorporate its financial and budgetary data into the overall federal
     government structure. For purposes of financial management and reporting, the Library has issued a regulation
     (LCR 1510), which adopts the federal standards for financial reporting and internal controls in a manner consistent
     with a legislative agency. The Library has not adopted the Federal Financial Management Improvement Act of
     1996, the Federal Managers Financial Integrity Act and the Government Performance and Results Act, as these
     standards are not applicable to the Library. However, the Library uses these sources as guidance and reference in its
     operations.



22
                                                                      Notes to the Consolidated Financial Statements



The statements include 4 (4) appropriated fund accounts; 26 (26) revolving (and gift revolving) funds; 26 (23)
reimbursable funds; 105 (105) TFB funds; and 136 (134) gift funds for fiscal year 2010 (and 2009, respectively).

C. Basis of Accounting

The Library’s financial statements conform to accounting principles generally accepted in the United States of
America as promulgated by the Federal Accounting Standards Advisory Board (FASAB). The American Institute
of Certified Public Accountants recognizes FASAB Standards as generally accepted accounting principles for
federal reporting entities.

The statements were also prepared based on guidance published in the Office of Management and Budget (OMB)
Circular No. A-136, Financial Reporting Requirements. The Library is not required to adopt this circular, and
accordingly has elected to use the disclosures management deems necessary for the fair presentation of financial
statement information.

The accounting structure of the Library is designed to reflect both accrual and budgetary accounting. Under the
accrual method, revenues are recognized when earned and expenses are recognized when a liability is incurred,
without regard to receipt or payment of cash. The budgetary accounting, on the other hand, is designed to recognize
the obligation of funds according to legal requirements, which in many cases is prior to the occurrence of an accrual-
based transaction. The budgetary accounting facilitates compliance with legal constraints on and controls over the
use of federal funds.

The preparation of financial statements in conformity with GAAP requires management to make estimates and
assumptions that affect the reported amounts of assets and liabilities and the disclosure of contingent assets and
liabilities at the date of the financial statements and the reported amounts of revenues and expenses during the
reporting period. Actual results could differ from these estimates.

D. Revenues and Other Financing Sources

Appropriations

The Library receives the majority of its funding to support its programs through four appropriations that include
both annual and no-year funding. The appropriated funds may be used, within statutory limits, for operating and
capital expenditures including equipment, furniture and furnishings. Appropriations are recognized as revenues at
the time they are expended. The four appropriations for fiscal year 2010 are:

        Library of Congress, Salaries and Expenses (annual and no-year)
        Copyright Office, Salaries and Expenses (annual and no-year)
        Congressional Research Service, Salaries and Expenses (annual)
        National Library Service for the Blind and Physically Handicapped, Salaries and Expenses (annual and no-
         year)

Earned Revenues

Additional amounts are obtained through reimbursements from services performed for other federal agencies as
authorized by the Economy Act and the Library's annual appropriations legislation. In addition, the Library operates
several self-sustaining revolving funds that generate revenues from the sale of various products and services to the
public and federal customers. Revolving and reimbursable fund revenue is recognized when goods have been
delivered or services rendered.

Under the authority of 2 U.S.C. 182, the Cooperative Acquisitions Revolving Fund was established on October 1,
1997, and is the program under which the Library acquires foreign publications and research materials on behalf of
participating institutions on a cost-recovery basis (over time). 2 U.S.C. 182 was amended for the establishment of
revolving funds for Audio and Video Duplication, Gift Shop Operations, Decimal Classification, Document
Reproduction and Microfilm Services, Special Events, FEDLINK and Federal Research Program.


                                                                                                                         23
Notes to the Consolidated Financial Statements



            The Audio and Video Duplication fund provides audio and video duplication and delivery services which
             are associated with the Packard Campus for Audio-Visual Conservation in Culpeper, Virginia.
          The Decimal Classification fund performs decimal classification development.
          The Gift Shop fund operates a gift shop and other sales of items associated with collections, exhibits,
             performances, and special events at the Library.
          The Document Reproduction and Microfilm Services fund provides document reproduction and
             microfilming services.
          The Special Events fund performs services related to the hosting of special events and programs by the
             Librarian in Library facilities.
          The FEDLINK program is the program of the Library under which procurement of publications and library
             support services, along with related accounting, education and support services are provided to Federal
             Government or District of Columbia entities.
          The Federal Research Program provides research reports, translations and analytical studies for Federal
             Government or District of Columbia entities.
     The revolving funds report, but are not required to recover, unreimbursed inter-entity costs (imputed costs).

     Imputed Financing Sources

     In accordance with FASAB’s Statement of Federal Financial Accounting Standards (SFFAS) No. 30, “Inter-Entity
     Cost Implementation Amending SFFAS 4, Managerial Cost Accounting Standards and Concepts,” the Library has
     recorded expenses for the material unreimbursed full costs of goods and services that it receives from other
     legislative branch agencies (i.e., the Architect of the Capitol and the Government Printing Office) and executive
     branch agencies (i.e., the Office of Personnel Management (OPM) and the Department of the Treasury) for fiscal
     years 2010 and 2009. Since these costs are not actually paid to the other agencies, an imputed financing source is
     recorded to offset these costs that are financed by the other Federal agencies.

     Donation and Interest Revenue

     The Library receives monetary gifts from donors and receives interest on invested funds. The Library also received
     gifts of donated property or services during fiscal years 2010 and 2009. The Library records these in-kind
     donations as donated revenue in the period earned and an offsetting expense in the same period. The Ad Council
     provided nearly all of the in-kind donations in the form of free advertising for America’s Library web site. Several
     vendors provided in-kind donations for the Library’s annual book festivals and several other meetings. Finally, at
     times, the Ira and Leonore Gershwin Trust Fund and Related Charitable Trust has provided in-kind materials and
     services to the Library.

     Deferred Credits

     The Library received gifts subject to certain conditions being met. These are not considered earned until the
     conditions are met, and are recorded as deferred credits until earned.

     E. Gift and TFB Funds

     The Library administered gift and TFB funds with combined asset value of approximately $156.8 million and
     $145.3 million during fiscal years 2010 and 2009, respectively. Funds are restricted as to their use, which must be
     in accordance with the terms of the gift agreement. In general, TFB funds are either temporarily restricted (principal
     may be spent) or permanently restricted (principal may not be spent). Additional restrictions may be imposed on
     TFB funds by the terms of an agreement or donor's will. Library fund managers administer and oversee the gift and
     TFB funds to ensure they are used as directed by the donors and in accordance with Library policy.

     F. Fund Balance with Treasury

     The amount shown as Fund Balance with Treasury represents the balances of the appropriated, reimbursable, gift
     and TFB funds, revolving, and deposit funds that are on deposit with the U.S. Treasury.



24
                                                                       Notes to the Consolidated Financial Statements


G. Cash and Other Monetary Assets

Cash and other monetary assets are defined as all cash not held by the U.S. Treasury. This category includes
deposits in transit, cash on hand and imprest funds.

The Library receives and utilizes foreign currencies in carrying out operations abroad as it conducts business
through six overseas offices. Foreign currency balances at year-end are immaterial to the financial statements.

H. Investments (Net)

Gift and TFB Funds - The TFB determines the investment policy for the Library's gift and TFB funds. The policy
provides three options for investment of TFB funds:

        A permanent loan with the U.S. Treasury

        A pool of U.S. Treasury market-based securities

        A private investment pool consisting of the following stock, index and money market funds utilized during
         fiscal year 2010:

            Vanguard Institutional Index Fund
            Diamond Hill Large Cap Value
            Dodge & Cox Income Fund
            Dodge & Cox Stock Fund
            Managers Cadence Capital Appreciation Fund
            Harbor Capital Appreciation Fund
            Artio International Equity Fund
            Lazard Emerging Markets Fund
            Neuberger Berman Large Cap Disciplined Growth Fund
            PIMCO Total Return Fund
            Vaughn Nelson Small/Mid Cap Value

         and utilized during fiscal year 2009:

            Vanguard Institutional Index Fund
            Vanguard Capital Opportunity Fund
            Fidelity Blue Chip Growth Fund
            Fidelity Capital Appreciation Fund
            Fidelity Growth Company Fund
            Fidelity Dividend Growth Fund


The policy for gift funds allows only for investment in U.S. Treasury market-based securities.

Under 2 U.S.C. 158, up to $10 million of the Library's gift and TFB funds may be invested with the U.S. Treasury as
a permanent loan at a floating rate of interest, adjusted monthly, but no less than four percent per annum. The
permanent loan is an interest bearing investment recorded at cost, which is market value.

Treasury securities are intended to be held to maturity, are valued at cost, and are adjusted for the amortization of
discounts and premiums. Interest is computed using the straight-line method, which approximates the effective
interest method.




                                                                                                                        25
Notes to the Consolidated Financial Statements


     Stock and money market funds are stated at current market value and are considered available for sale. Unrealized
     gains and losses are recognized and recorded as a component of non-exchange revenue in the statement of changes
     in net position.

     All gift and TFB fund investments are obtained and held by the gift and TFB funds under conditions set forth in the
     respective gift and TFB instruments.

     Deposit Funds - Pursuant to Public Law 105-80, funds deposited by copyright applicants are invested, based on the
     unearned balance available, by the Copyright Office in U.S. Treasury securities. Treasury securities are intended to
     be held to maturity, are valued at cost and are adjusted for the amortization of discounts and premiums. Interest is
     computed using the straight-line method, which approximates the effective interest method. These investments will
     be held until the deposit fees are earned and income accrues to the benefit of the Copyright Office.

     I. Accounts Receivable

     Accounts receivable primarily resulted from billings to other federal agencies under reimbursable interagency
     agreements for database retrieval and other library services. The Library has established an allowance for doubtful
     accounts against accounts receivable due from non-federal customers, based on past collection experience. The
     Library does not record allowance for doubtful accounts for intragovernmental accounts receivable in accordance
     with SFFAS No. 1, “Accounting for Selected Assets and Liabilities,” which cites that “losses on receivables should
     be recognized when it is more likely than not that the receivable will not be totally collected.” Intragovernmental
     receivables are likely to be totally collected.

     J. Pledges Receivable
     Contributions of unconditional promises to give (pledges) to the Library and the Library of Congress TFB are
     recognized as donated revenue in the period the pledge is received. They are recorded at their estimated present
     value using a market-based discount rate. Accretion of the discount in subsequent years is also recorded as donated
     revenue. Substantially all of the Library's pledges are from major corporations or donors. The Library regularly
     monitors the status of all pledges and adjusts accordingly; therefore no allowance for uncollectible pledges has been
     established.

     K. Inventory and Related Property

     The Library's inventories are primarily comprised of bibliographic products that will be consumed in future
     operations; materials used to reproduce printed materials; sound recordings for both internal and external sales; and
     sales shop merchandise for resale. Sales shop merchandise is valued at cost or market, whichever is lower. The
     recorded values of inventory and operating materials are adjusted for the results of periodic physical counts.

     L. Property and Equipment
     For fiscal years prior to 1998, the Library capitalized furniture and equipment at cost if the initial acquisition cost
     was $10,000 or more. Starting in fiscal year 1998, the Library capitalizes furniture and equipment at cost if the
     initial acquisition cost is $25,000 or more. Depreciation is computed on a straight-line basis using estimated useful
     lives.

     Property and equipment accounts are maintained in three categories of funds: Appropriated, Reimbursable and
     Revolving. The appropriated fund category includes all property and equipment used by the Library for general
     operations. Property and equipment purchased by the Integrated Support Services Administrative Working Fund are
     recorded in the reimbursable funds. Property and equipment purchased by FEDLINK, the Federal Research
     Program, Document Reproduction and Microfilm Service, Audio Visual Services, and the Cooperative Acquisitions
     Program are recorded in the revolving funds.
     The Library occasionally acquires property and equipment by direct gift or by purchase from funds donated for a
     specific purpose or project. Because property is generally not restricted for use to gift and trust activities, property
     accounts are not maintained in the gift and TFB funds. Capitalized property and equipment acquired through gifts
     are recognized as donated revenue in the gift and TFB funds and transferred to the Library's appropriated fund, once



26
                                                                          Notes to the Consolidated Financial Statements


the costs are complete and the property is placed in service. The Library records the donated property and
equipment at its fair market value at the time of the gift.

Operating equipment is amortized over a 3 to 20-year period. Software includes ADP software purchased from
outside vendors and software defined as “internal use software” in accordance with SFFAS No. 10, “Accounting for
Internal Use Software.” All software recorded has an estimated useful life of three years or more and a value of at
least $10,000 per item acquired in fiscal years 1997 and prior or at least $100,000 per item acquired in fiscal years
after 1998.

Leased equipment meeting the criteria for capitalization in accordance with Statements of Federal Financial
Accounting Standards is included in property and equipment.

Land and buildings are excluded from the Library's property and equipment accounts because they are under the
custody and control of the Architect of the Capitol. This arrangement encompasses four Capitol Hill buildings (the
Thomas Jefferson, James Madison, John Adams Buildings, and the Special Facilities Center), a secondary storage
facility at Fort Meade, Maryland, and the Packard Campus for Audio-Visual Conservation in Culpeper, Virginia.
The Architect receives an appropriation from Congress to fund maintenance, care and operations of the Library’s
buildings and grounds. Costs associated with the acquisition and maintenance of these buildings is accounted for by
the Architect. However, the Library has recorded the inter-entity cost and related imputed financing source in its
books. The Library does capitalize and depreciate leasehold improvements to its facilities as long as the
improvements were made using the Library’s funding sources and the acquisition cost is at least $100,000.

M. Library Collections
The Library classifies its collections as Heritage Assets, that is, assets with historical, cultural, educational, artistic
or natural significance. The Library’s mission is to make its resources available and useful to the Congress and the
American people and to sustain and preserve a universal collection of knowledge and creativity for future
generations.

The Library’s collection development policies are designed to fulfill its responsibilities to serve (1) the Congress and
United States government as a whole, (2) the scholarly and library community, and (3) the general public. Written
collection policy statements ensure that the Library makes every effort to possess all books and library materials
necessary to the Congress and various offices of the United States government to perform their duties; a
comprehensive record, in all formats, documenting the life and achievement of the American people; and a universal
collection of human knowledge embodying, primarily in print form, the records of other societies, past and present.

Copyright deposits are a major source of the Library’s collections of Americana. The Library also acquires materials
by purchase, transfer from other federal agencies, gift, domestic and international exchange, or by provisions of state
and federal law. Many of these materials are foreign publications. Various preservation methods are used to
maintain the collections, and disposals occur only for the exchange and gift of unwanted or duplicate copies. As of
September 30, 2010 and 2009 the Library had 92 collections managed by its custodial units.

The cost of acquiring additions to the collections is expensed, when incurred, in the statement of net cost. (See note
13.) Supplemental information regarding the condition and preservation of the collections is included with the
Assessment of Condition of Heritage Assets.

N. Liabilities

Liabilities represent the amounts that are likely to be paid by the Library as a result of transactions that have already
occurred. Liabilities for which an appropriation has not been enacted, or which are the results of deposit account
activities, are classified as liabilities not covered by budgetary resources. For accrued unfunded annual leave,
compensatory time earned, workers' compensation and capital lease liabilities, it is not certain that appropriations
will be enacted to fund these amounts.

    Advances from Others are funds received for the revolving programs that have not yet been earned.




                                                                                                                              27
Notes to the Consolidated Financial Statements


         Deposit Liabilities are customer funds on deposit for Copyright, Document Reproduction and Microfilm
         Services, and Cataloging Distribution Service products and services.

         Accrued Annual and Compensatory Leave - The Library's basic leave policy is contained in Title 5, U.S.C. the
         Uniform Annual and Sick Leave Regulations of the Office of Personnel Management, and the decisions of the
         Comptroller General. Generally, each employee may carry forward a maximum of 240 hours of annual leave
         per calendar year. Annual leave is accrued as it is earned and the liability is adjusted at the end of each fiscal
         year based on annual leave earned and taken. Annual leave earned in excess of the maximum permitted
         carryover is forfeited. Each year, the balance in the accrued annual leave account is also adjusted to reflect
         current pay rates.

         Employees' compensatory time earned but not taken is also accrued at year-end. An employee may accumulate
         a maximum of 40 hours of compensatory time during the fiscal year. Beginning with the 2008 leave year,
         compensatory leave earned will remain on the employee’s leave record for use up to a maximum of 26 pay
         periods from the pay period in which it was earned. Any compensatory leave not used beyond the 26 pay
         periods will be forfeited.

         Sick leave and other types of nonvested leave are expensed as taken.

         Capital Lease Liabilities are liabilities resulting from capital leases of equipment. The Library’s lease
         agreements are annual fiscal year contracts that are subject to the availability of funding. The agreements
         contain a lease to purchase provision and there is no penalty for discontinuing the lease and turning back
         equipment prior to the completion of the agreement. There were no capital leases in fiscal years 2010 or 2009.

     O. Federal Employee Retirement Benefits

     Approximately 24 percent and 25 percent of the Library's employees participated in the Civil Service Retirement
     System (CSRS) during fiscal years 2010 and 2009, respectively, to which the Library makes contributions equal to
     7.0 percent of pay. Approximately 3 and 2 percent of employees under CSRS during fiscal years 2010 and 2009 are
     also covered by Social Security (FICA), for which the Library’s contribution is slightly less.

     Approximately 73 percent and 72 percent of the Library’s employees were covered by the Federal Employees
     Retirement System (FERS) during fiscal years 2010 and 2009, respectively, to which the Library's normal
     contribution was 11.2 percent of pay during fiscal years 2010 and 2009. Additionally, for employees under FERS,
     the Library contributes an automatic 1% of employee's pay, plus matches employee Thrift Savings Plan (TSP)
     contributions up to 4 percent of pay (matched dollar-for-dollar on the first 3 percent of pay and 50 cents on the
     dollar for the next 2 percent of pay). Under FERS, the employee is also covered by FICA to which the Library
     contributes the employer's matching share.

     Approximately 3 percent of the Library's employees were covered only by FICA during fiscal years 2010 and 2009,
     to which the Library contributes the employer’s matching share.

     The accrued contributions due at the end of the fiscal year are reported as liabilities covered by budgetary resources.

     The actuarial present value of accumulated benefits, assets available for benefits, and unfunded pension liability of
     Social Security, FERS and CSRS is not allocated to individual Federal departments and agencies. However, in
     accordance with SFFAS No. 5, “Accounting for Liabilities of the Federal Government,” current year expenses were
     recorded for the service cost of the Library’s employee retirement, health and life insurance benefits during fiscal
     years 2010 and 2009, and was offset by an imputed financing source, which represents the amount being financed
     directly by OPM.

     With the fiscal year 2010 implementation of SFFAS No. 33, Pensions, Other Retirement Benefits and Other
     Postemployment Benefits: Reporting the Gains and Losses from Changes in Assumptions and Selecting Discount
     Rates and Valuation Dates, there are significant changes to the actuarial assumptions for the retirement benefit
     service costs. SFFAS No. 33 required a change to the long term economic assumptions used in the reporting of
     actuarial liabilities for CSRS and FERS. In addition, the Defense Authorization Act for Fiscal Year 2010 included



28
                                                                         Notes to the Consolidated Financial Statements


provisions to provide credit under FERS for unused sick leave balances at retirement, and to allow for redeposit of
refunded FERS contributions for employees returning to federal service. This change significantly increased the
imputed cost recognized by the Library. In fiscal year 2010 CSRS program costs increased by $2.9 million and
FERS program costs increased by $3.7 million.

P. Federal Government Transactions

The financial activities of the Library interact with and depend on other federal government agencies. Thus, the
Library's financial statements do not reflect all financial decisions and activities applicable to it as if it were a stand-
alone entity. The financial statements do not contain the cost of activities performed for the benefit of the entire
government, nor do they include the agency's share of the federal deficit or of public borrowings, including interest
thereon. However, expenses have been recognized for expenses incurred by certain other agencies on behalf of the
Library, including settlement of claims and litigation paid by the Treasury’s Judgment Fund and the partial funding
of employee benefits by OPM.

The Library's program for the blind and physically handicapped participates in the U.S. Postal Service's (USPS)
"Matter for Blind and Other Handicapped Persons" program (39 U.S.C. 3403 - 3406). This Postal Service program
receives an appropriation from Congress to provide free postage for qualifying organizations, programs, and
individuals such as mail from war zones, letters from blind people to anyone, and organizations that work for the
blind. The Library's National Library Service for the Blind and Physically Handicapped uses this free matter
program for mailing all books and equipment to its participating lending libraries and patrons. No cost for this has
been determined, nor included in the Library’s financial statements as the Library views the relationship with the
USPS and state and local libraries as a partnership and not inter-entity costs.

Services Provided to other Federal Agencies:

        The Library is authorized to provide to other federal libraries and agencies services such as automated
         library information and other data base retrieval services through data base vendors and in-house research
         studies. These services are provided on a cost reimbursement basis and are billed in advance of providing
         the services. At year-end the Library estimates the amount received in advance (Advances From Others -
         Intragovernmental) and the amount to be received for services provided (Accounts Receivable -
         Intragovernmental).

        The Library is authorized to provide to other legislative branch agencies financial system hosting services.
         These services are provided on a cost reimbursement basis in accordance with the Economy Act.

Services Provided by other Federal Agencies:

Three governmental agencies provide administrative services to the Library on a reimbursable basis.

        The Department of Agriculture's National Finance Center (NFC) processes the Library's personnel, payroll,
         and employee benefits accounting transactions.

        The Library utilizes the services of the Department of State as documented by the International Cooperative
         Administrative Support Services (ICASS) system to support the Library's six overseas field offices.

        General Services Administration (GSA) provides building and vehicle leasing services for the Library.


Q. Related Party Organizations
The Library lends support to several related organizations, projects, and programs from which it receives benefits in
various forms. The following is a list of these organizations or programs:

    1.   Telephone Pioneers of America - The Telephone Pioneers is a large industry-related organization that
         voluntarily repairs playback machines for the blind and physically handicapped program. Approximately


                                                                                                                               29
Notes to the Consolidated Financial Statements


              1,500 Telephone Pioneers (AT&T retirees) and Elfuns (General Electric retirees) donate their time to repair
              the cassette book machines and talking book machines.

         2.   Library of Congress Child Care Association (LCCCA) - The LCCCA is a nonprofit corporation under
              the District of Columbia's Nonprofit Corporation Act. It was granted 501(c)(3) status by the Internal
              Revenue Service on August 31, 1992, and currently operates as the "Little Scholars Child Development
              Center." The center is located on the ground floor of the Library's Special Facilities Center, 601 East
              Capitol Street, District of Columbia. The center provides childcare for Library employees and other federal
              and non-federal employees. Its operations, management, and employees are the responsibility of the
              LCCCA and not the Library. However, the Library and the Architect of the Capitol support the center with
              equipment, free space, cleaning and maintenance of grounds and building, utilities, local telephone service,
              and security. The value of the services provided by the Library cannot be readily determined. In addition,
              the Library, in accordance with Public Law 106-554, pays the government contributions for individuals
              receiving health, life and retirement benefits provided by the Office of Personnel Management. The
              Library provides an official who is a non-voting representative on the center's Board of Directors and who
              acts as a liaison with the Library.

         3.   The Archer M. Huntington Charitable Trust - This charitable trust was established in 1936 and is
              controlled and invested by the Bank of New York. The assets of the endowment are not a part of the TFB
              and the board's only control over its investment activities is through the Librarian of Congress' role as
              trustee. The trust is defined as a split-interest agreement with a fair value of assets of $4.4M and $4.3M at
              September 30, 2010 and 2009, respectively. The Library is entitled to one-half of the income from the trust
              for perpetuity, which is used to support a rotating consultantship to bring "distinguished men of letters . . ."
              to the Library. Currently, the income assists in the funding of a "poet laureate" position, the acquisition of
              materials for the Library’s Hispanic collections, and the promotion of activities of the Hispanic Division,
              particularly those that relate to Spain, Portugal and Latin America.

         4.   Ira and Leonore Gershwin Trust Fund and Related Charitable Trust - Under the will of Mrs. Leonore
              Gershwin, the TFB is the beneficiary of 37.5 percent of Mrs. Gershwin's "1987 Trust." The will
              established the "Library Charitable Trust" which was accepted by the TFB in January 1992. The primary
              purpose of the trust is to perpetuate the name and works of George and Ira Gershwin through all resources
              of the Library. The charitable trust does not belong to the Library but is a separate entity administered by
              trustees. The net income of the charitable trust is distributed to the Library's Ira and Leonore Gershwin
              Trust Fund yearly or upon the request of the Library. Income is recorded by the Library in the period
              received. The balance of the Principal of the charitable trust will be distributed to the Library in 2033, fifty
              years after the date of death of Ira Gershwin.

     R. Accounting Change

     Beginning in fiscal year 2009, the Library adopted SFFAS No. 31, “Accounting for Fiduciary Activities,” which
     was effective October 1, 2009. Earlier adoption was not permitted, and the standard precludes restating prior period
     amounts presented in the financial statements and notes.

     Beginning in fiscal year 2009, the Library’s Balance Sheet, Statement of Net Cost and Statement of Net Position, as
     well as notes related to specific items on those statements, will no longer include the results of operations and
     financial position of its funds identified as “fiduciary activities.” (See Note 21).

     Fiduciary activities were included in the statements of the Library as assets and custodial liability on the Balance
     Sheet, its activities were included in the Statement of Net Cost and in the Statement of Changes in Net Position, and
     disclosed in the notes as “Custodial” Funds, Balances or Activities in fiscal years 2008 and prior.




30
                                                                     Notes to the Consolidated Financial Statements



    NOTE 2               FUND BALANCE WITH TREASURY

A. Fund balance with Treasury at September 30, 2010 and 2009, is summarized as follows:

                                                                                   (in thousands)
                                                                             FY 2010            FY 2009
        Appropriated Funds                                              $         248,364 $          250,257
        Revolving and Reimbursable Funds                                           84,821             83,657
        Gift and TFB Funds 1                                                       15,675             15,165
        Deposit and Other Funds                                                     1,557              1,340
        TOTAL                                                           $         350,417 $          350,419

    1
      At September 30, 2010 and 2009, the gift and TFB fund balance with Treasury included $10 million
    invested in the permanent loan, which is included in fund balance with Treasury, at interest rates of 4.02
    and 4.06 percent, respectively.

B. Status of Fund Balance with Treasury
                                                                                   (in thousands)
                                                                             FY 2010            FY 2009
        Unobligated Balances – Available                                $          33,806 $           58,711
        Unobligated Balances – Unavailable                                         28,846             24,357
        Obligated Balances Not Yet Disbursed                                      286,208            266,011
        Non-budgetary                                                               1,557              1,340
        TOTAL                                                           $         350,417 $          350,419




    NOTE 3               CUSTODIAL FUNDS

Beginning in 2009 and in accordance with SFFAS No. 31, fiduciary custodial assets and liabilities are no longer
reported on the balance sheet. See Note 1.R for a description of the accounting change. See Note 21 for reporting
on fiduciary assets, liabilities and activity.




                                                                                                                    31
Notes to the Consolidated Financial Statements




         NOTE 4                 INVESTMENTS, NET

     Investments at September 30, 2010 and 2009 are as follows:


                                                                                (in thousands)
                                                       Intragovernmental
                                                          Investments    Other Investments
                          FY 2010                       (Non-Marketable,  (Private Sector)
                                                                                                         Total
                                                         Market-Based)
          Face Value                                   $             42,594 $                      $             42,594
          Cost                                                                            84,761                 84,761
          Unamortized Premium                                           (0)                                         (0)
          Unrealized Discount                                          (11)                                        (11)
          Interest Receivable                                             0                                          0
          Investments, Net                             $            42,583 $              84,761 $           $127,344
          Market Value                                 $            42,583 $              84,979 $            127,562



                                                                                (in thousands)
                                                       Intragovernmental
                                                           Investments    Other Investments
                          FY 2009                       (Non-Marketable,    (Private Sector)
                                                                                                         Total
                                                          Market-Based)
          Face Value                                    $          42,495 $                  $                   42,495
          Cost                                                                            97,044                 97,044
          Unamortized Premium                                           (0)                                         (0)
          Unrealized Discount                                           (9)                                         (9)
          Interest Receivable                                             0                                          0
          Investments, Net                              $           42,486 $              97,044 $            139,530
          Market Value                                  $           42,488 $              78,848 $            121,336



     A. Intragovernmental Investments

     Non-marketable, market-based securities are Treasury notes and bills issued to governmental accounts that are not
     traded on any securities exchange, but mirror the prices of marketable securities with similar terms. TFB fund
     investment maturity dates for fiscal years 2010 and 2009 range from October 7, 2010 to March 11, 2011 and
     October 1, 2009 to March 4, 2010, respectively, and interest rates for the same fiscal years range from .12 percent to
     .19 percent and .09 percent to .22 percent, respectively.




32
                                                                        Notes to the Consolidated Financial Statements


B. Other Investments

Other investments are the Library's investments in private sector mutual funds. Cost was derived from the
investments made plus reinvested gains, dividends, and interest.

Balances at September 30, 2010 and 2009 are as follows:



                                            Non-Treasury Investments
                                               Fiscal Year 2010   Fiscal Year 2009



                                                                                                $97.0

                      $100          $85.0                                      $84.7
                                                     $78.9
                      $90
                      $80

                      $70

                      $60
      (in millions)




                      $50

                      $40

                      $30

                      $20

                      $10

                       $0
                             Equity Mutual Funds (market value)             Equity Mutual Funds (cost)




                                                                                                                   33
Notes to the Consolidated Financial Statements



         NOTE 5              RECEIVABLES

     The breakdown of consolidated gross and net accounts receivable at September 30, 2010 and 2009 are as follows:

     A. Accounts Receivable

                                                                                           (in thousands)
                                                                                     FY 2010            FY 2009
          Intragovernmental Accounts Receivable, Gross and Net                  $         11,848 $           12,100


          With the Public:
              Accounts Receivable, Gross                                                     349               534
              Less: Allowance for Doubtful Accounts                                          (14)              (21)
              Accounts Receivable, Net                                          $            335     $         513


     B. Pledges Receivable

     At September 30, 2010 and 2009, the Library had unconditional pledges of contributions totaling $19.9 million and
     $15.8 million, which were discounted through fiscal years 2033 and 2033 at a market discount rate and included in
     the statement of financial position at their discounted value of $19.2 million and $14.8 million, respectively.

     The amounts due in future years, at September 30, at their current discounted value are:

                                                                                          (in thousands)
                                                                                    FY 2010            FY 2009
          2010                                                              $                      $          5,154
          2011                                                                           $10,584              4,785
          2012                                                                             5,154              3,399
          2013                                                                               981                 28
          2014                                                                               963                 26
          2015 and thereafter                                                              1,526              1,367
          TOTAL                                                             $             19,208 $          14,759




34
                                                                       Notes to the Consolidated Financial Statements



    NOTE 6              PROPERTY AND EQUIPMENT

Property and equipment that were capitalized at September 30, 2010 and 2009 are as follows:

                                                                    (in thousands)
                                            FY 2010                             FY 2009
                                           Accumulated                         Accumulated
    Classes of Property        Acquisition                Net Book Acquisition                Net Book
                                           Depreciation /                      Depreciation /
     and Equipment               Value                     Value     Value                     Value
                                           Amortization                        Amortization
Operating Equipment           $    67,575 $       52,283 $ 15,292 $    63,311 $       47,780 $ 15,531
Software                             59,385            32,063      27,322            55,228             27,379      27,849
Furniture & Furnishings               2,224               937       1,287             2,224                 815      1,409
Leasehold Improvements               37,483            15,828      21,655            34,445             13,481      20,964
Leasehold Improvements-in
                                      1,459                 0       1,459             3,385                   0      3,385
Progress
TOTAL                          $    168,126 $         101,111 $    67,015 $      158,593 $              89,455 $    69,138




    NOTE 7              NON-ENTITY ASSETS

Entity assets are those assets that the Library has authority to use for its operations. Non-entity assets are those held
by the Library but are not available for use in its operations.
                                                                    (in thousands)
                                                FY 2010                                           FY 2009
Intragovernmental Non-Entity Assets                                     $                     0     $                   0

Accounts Receivable-with the Public                                                         24                          26
Total Non-Entity Assets                                                 $                   24      $                   26
Total Entity Assets                                                     $              578,799      $              569,624
Total Assets                                                            $              578,823      $              569,650




                                                                                                                             35
Notes to the Consolidated Financial Statements



         NOTE 8              LEASES

     A. Capital Leases

     The Library did not have assets under capitalized leases for machinery and equipment as of September 30, 2010 and
     2009.

     B. Operating Leases

     The Library leases office space and vehicles from the General Services Administration and has entered into other
     operating leases for various types of equipment. Additionally, the Library’s overseas field offices lease operating
     space from the Department of State.

     Lease costs for office space, vehicles and equipment for fiscal years 2010 and 2009 amounted to $4,572,895 and
     $4,556,046 respectively.

     Under existing commitments as of September 30, estimated future minimum lease payments are as follows:

                                                                                         (in thousands)
                                                                                   FY 2010            FY 2009
          2010                                                               $                 0 $           4,444
          2011                                                                            5,391              1,589
          2012                                                                              261                222
          2013                                                                              160                121
          2014                                                                              117                 78
          2015 and thereafter                                                                 12                 0
          TOTAL ESTIMATED FUTURE LEASE PAYMENTS                               $           5,941 $            6,454



         NOTE 9              WORKERS’ COMPENSATION

     The Federal Employees' Compensation Act (FECA) provides income and medical cost protection to covered federal
     civilian employees injured on the job, employees who have incurred a work-related occupational disease, and
     beneficiaries of employees whose death is attributable to a job-related injury or occupational disease. Claims
     incurred for benefits for Library employees under FECA are administered by the Department of Labor (DOL) and
     later billed to the Library.

     The Library is using estimates provided by DOL to report the FECA liability. The Library accrued $1,755,799,and
     $1,657,043 of unbilled or unpaid workers' compensation costs as of September 30, 2010 and 2009, respectively.
     The amount owed to DOL is reported on the Library’s Balance Sheet as an intragovernmental liability. The Library
     also established an estimated unfunded liability payable to employees, for future costs based on historical claims
     rates. The estimated future unfunded liability is $7,461,253, and $6,743,165 as of September 30, 2010 and 2009
     respectively, and is based on a ten-year projection. This liability is recorded on the Balance Sheet as a liability with
     the public.




36
                                                                    Notes to the Consolidated Financial Statements



   NOTE 10             CONTINGENT LIABILITIES

Several claims relating to employment matters are outstanding against the Library. While management cannot
predict the outcome of the claims and is unable to estimate the potential loss, the maximum loss under each claim
may not exceed $300,000 in compensatory damages, plus any equitable relief (back pay, front pay, attorney's fees).
Under law, any claims settled internally would be paid from the Library's funds and any claims defended in court
would be settled by the Treasury's Claims, Judgments and Relief Act Fund.


   NOTE 11             OTHER LIABILITIES

Other Liabilities as of September 30, 2010 and 2009 are comprised of the following:

                                                                                   (in thousands)
                                                                            FY 2010               FY 2009
     Other Liabilities-Intragovernmental:
     Deferred Credits                                                   $              (16)   $               (7)
     Liability for Clearing Accounts                                                   146                    68
        Total Intragovernmental                                                        130                    61

     Other Liabilities-With the Public
     Deferred Credits and Pledges                                                       461                 1,096
     Advances from the Public                                                         4,830                 1,699
        Total with the Public                                                         5,291                 2,795
     TOTAL                                                              $             5,421   $             2,856



                       LIABILITIES COVERED AND NOT COVERED
   NOTE 12
                       BY BUDGETARY RESOURCES

                                                                                   (in thousands)
                                                                            FY 2010             FY 2009
     Liabilities Covered by Budgetary Resources                     $            126,449 $           120,794
     Liabilities Not Covered by Budgetary Resources:
        Intragovernmental                                                          1,756                 1,657
        With the Public                                                           33,756                32,348
     TOTAL                                                          $            161,961 $             154,799

Liabilities covered by budgetary resources include accounts payable, advances from others, accrued funded payroll
and benefits, custodial liabilities, deposit account liabilities, advances from the public, and deferred credits.

Liabilities not covered by budgetary resources include accrued unfunded annual and compensatory leave, accrued
unfunded workers compensation, and other unfunded liabilities.




                                                                                                                     37
Notes to the Consolidated Financial Statements


     `
          NOTE 13               PROGRAM COSTS BY BUDGET OBJECT CLASSIFICATION
                                                           (Dollars in Thousands)

         FY 2010 Program Costs by Budget Object Classification




                                                   Depreciation and               Other Program Costs
                                                     Amortization                       $37,510
                                                        $14,395                           4%
                     Non-Capitalizable
                                                           2%
                         Equipment
                           $57,086
                              6%




                       Library Materials
                                                                                                       Personnel Services and
                            $82,725
                                                                                                                Benefits
                                9%
                                                                                                              $473,639
                                                                                                                    50%

                        Contractual Services
                               $274,739
                                   29%



         FY 2009 Program Costs by Budget Object Classification
                                           Depreciation and       Other Program Costs
                                               Amortization             $40,868
                                                 $15,853                  5%
                      Non-Capitalizable
                                                   2%
                         Equipment
                           $11,697
                             1%


                       Library Materials
                           $78,047
                              9%


                                                                                                  Personnel Services and
                                                                                                         Benefits
                   Contractual Services
                                                                                                        $453,080
                        $254,599
                                                                                                          53%
                          30%




     The Library’s collections are classified as “heritage assets.” $27.3 million and $25.4 million of the amount
     designated as “Library Materials” above represents the fiscal years 2010 and 2009 cost incurred by the Library for
     “heritage assets.”




38
                                                                      Notes to the Consolidated Financial Statements



                        PROGRAM COSTS AND EARNED REVENUE
   NOTE 14
                        BY FUNCTIONAL CLASSIFICATION

A. Program Costs by Functional Classification

                                                                                    (in thousands)
                                                                           FY 2010                FY 2009
     Commerce and Housing Credit                                      $          64,908      $           56,813
     Education, Training, Employment, and Social Services                       750,652                 679,371
     General Government                                                         124,534                 117,960
     TOTAL                                                            $         940,094      $          854,144


B. Earned Revenue by Functional Classification

                                                                                   (in thousands)
                                                                           FY 2010              FY 2009
     Commerce and Housing Credit                                      $          38,473 $              30,027
     Education, Training, Employment, and Social Services                        98,626                87,660
     General Government                                                                6                   10
     TOTAL                                                            $         137,105 $             117,697




   NOTE 15              EXCHANGE REVENUES

In accordance with Library of Congress Regulation (LCR) 1510, Financial Services, the Library must comply with
any OMB circular or bulletin if it is specifically prescribed in (1) an LCR, (2) an OCFO Directive, or (3) if required
by law. OMB Circular No. A-25, User Charges, does not fall into any of these three categories, but may be used by
the Library as a useful point of reference. Circular No. A-25 requires that user charges be sufficient to recover the
full costs to the federal government. Full costs include all direct and indirect costs to any part of the federal
government of providing the good or service, including unreimbursed inter-entity costs.

The Copyright Office’s registration operations have legislatively mandated fees, which do not require the recovery
of the full costs of operations. The Register is authorized to fix fees at a level not more than necessary to recover
reasonable costs incurred for services plus a reasonable adjustment for inflation. Fees should also be fair and
equitable and give due consideration to the objectives of the copyright system.

If the Library were to increase fees and prices to recover full costs to the government for providing these goods and
services, this would in some cases reduce the quantity of goods and services demanded. It is not practicable to
provide reasonable estimates regarding (1) revenue foregone from charging fees that do not recover full costs to the
government and (2) to what extent the quantity of goods and services demanded would change as a result of changes
in prices and fees.




                                                                                                                         39
Notes to the Consolidated Financial Statements



                        PROGRAM COSTS AND EARNED REVENUE
       NOTE 16
                        FOR REVOLVING FUNDS

                                                                                    (in thousands)
                                                                               FY 2010         FY 2009
                Audio Visual Services: Program Cost                          $         185 $           127
                                       Less: Earned Revenue                          (117)           (104)
                                       Net Program Cost                                 68              23


              Cooperative Acquisitions Program Cost                                     2,648          2,490
                            Program: Less: Earned Revenue                             (2,867)        (2,813)
                                       Net Program Cost                                 (219)          (323)

                Decimal Classification: Program Cost                                     212            247
                                        Less: Earned Revenue                           (170)          (306)
                                        Net Program Cost                                  42           (59)


           Document Reproduction and Program Cost                                       1,987          2,195
                  Microfilm Services: Less: Earned Revenue                            (1,033)        (1,086)
                                      Net Program Cost                                    954          1,109

                 Gift Shop Operations: Program Cost                                     1,659          1,564
                                       Less: Earned Revenue                           (1,726)        (1,552)
                                       Net Program Cost                                  (67)             12

            Federal Research Division: Program Cost                                     2,835          3,038
                                       Less: Earned Revenue                           (3,184)        (3,508)
                                       Net Program Cost                                 (349)          (470)

                           FEDLINK: Program Cost                                       81,970         73,217
                                    Less: Earned Revenue                             (82,282)       (71,876)
                                    Net Program Cost                                    (312)          1,341

                       Special Events: Program Cost                                     2,645          2,586
                                       Less: Earned Revenue                           (1,344)        (1,111)
                                       Net Program Cost                                 1,301          1,475

                                        Total Program Cost                             94,141         85,464
                                        Less: Total Earned Revenue                   (92,723)       (82,356)
                                        TOTAL PROGRAM COSTS                  $          1,418   $      3,108

                                 These programs are discussed further in Note 1.D.




40
                                                                              Notes to the Consolidated Financial Statements



  NOTE 17                CLASSIFICATION OF PROGRAM COSTS


                                                                                  (in thousands)
                                                Intragovernmental               Public
                                                              Non-                     Non-                     Total
               FY 2010                       Production
                                                           Production
                                                                       Production
                                                                                    Production
National Library                             $   126,123 $          54 $ 359,119 $           35 $                 485,331
Law Library                                           7,342               2            18,133                      25,477
Copyright Office                                     19,934              16            61,376                      81,326
Congressional Research Service                       32,774              30           115,620                     148,424
National Library Service for the Blind
                                                      6,029               7            83,365                      89,401
and Physically Handicapped
Revolving and Reimbursable Funds                      4,674              33           105,428                     110,135
TOTAL                                        $      196,876 $           142 $         743,041 $        35 $       940,094




                                                                              (in thousands)
                                                   Intragovernmental                          Public
                                                                                                   Non-         Total
              FY 2009                    Production          Non-Production        Production
                                                                                                Production
National Library                         $       121,409     $            24 $         340,272 $        204 $     461,909
Law Library                                        7,813                   1             17,172                    24,986
Copyright Office                                  19,036                      5          54,845                    73,886
Congressional Research Service                    31,550                  19           107,842                    139,411
National Library Service for the                                              5
                                                   6,533                                45,494                     52,032
Blind and Physically Handicapped
Revolving and Reimbursable Funds                   6,907                  19             94,994                   101,920
TOTAL                                    $       193,248 $                73 $         660,619 $       204 $      854,144




                                                                                                                            41
Notes to the Consolidated Financial Statements



         NOTE 18             EARMARKED FUNDS

     SFFAS No. 27, “Identifying and Reporting Earmarked Funds,” effective October 1, 2005, defines “earmarked
     funds” as those being financed by specifically identified revenues, often supplemented by other financing sources,
     which remain available over time. These specifically identified revenues and financing sources are required by
     statute to be used for designated activities, benefits or purposes, and must be accounted for separately from the
     Government’s general revenues. The Library’s consolidated financial statements include the results of operations
     and financial position of its funds identified as “earmarked funds.” The Library’s earmarked funds are presented
     among the following classifications:

        Collections of fees authorized annually for use by appropriations act for:
          The Cataloging Distribution Service (CDS), which is the distribution arm for the Library of Congress
             bibliographic data and related technical publications. Pursuant to 2 U.S.C. 150, CDS sells its products to
             libraries throughout the United States and around the world and charges “…a price which will cover their
             costs plus ten per centum added.” CDS earned revenues were $3,528,043 and $3,775,257 for fiscal year
             2010 and 2009, respectively.
          The Law Library, pursuant to Public Law 105-275, Section 208, is authorized to receive funds from
             participants in and sponsors of an international legal information database (known as the Global Legal
             Information Network (GLIN)) led by the Law Library of Congress. Fees collected for the development and
             maintenance of GLIN were $15,000 and $20,000 for fiscal year 2010 and 2009, respectively; and
          The Copyright Office, pursuant to 17 U.S.C. 708(d), is authorized to collect fees for the registration of a
             copyright claim and other copyright recordation and filing activities. Fees collected for these services
             were $27,798,705 and $27,110,693 for fiscal 2010 and 2009, respectively.
          The Recycling Program, pursuant to Public Law 108-199, Section 607, is authorized to collect funds
             resulting from the sale of materials recovered through the recycling program. Fees collected for the
             program were $12,203 and $26,386 for the fiscal years 2010 and 2009.

        Public Revolving Funds authorized by 2 U.S.C. 182 for the Cooperative Acquisitions, Audio and Video
         Duplication, Gift Shop Operations, Decimal Classification, Document Reproduction and Microfilm Services,
         and Special Events (these programs are discussed further in Note 1.D. and 16);

        Gift and TFB Funds authorized by 2 U.S.C. 154-163 (and discussed further in Note 1. E.). Gift and TFB Fund
         cash donations and other realized revenues were $21,277,082 and $17,257,472 for fiscal year 2010 and 2009,
         respectively; and

        Other earmarked funds not outlined above (combined revenues of $7,685 and $1,597 for fiscal year 2010 and
         2009, respectively), including: The Oliver Wendell Holmes Devise Fund, which is authorized to fund lectures
         known as the “Oliver Wendell Holmes Lectures” and other projects pertaining to Justice Holmes or the
         Supreme Court (Pursuant to Public Law 84-247); The Gertrude M. Hubbard Bequest, which benefits the
         Gardiner Greene Hubbard Collection (Pursuant to 37 Stat. 319-20); and the Foreign Service National Separation
         Liability Trust Fund, which is authorized to provide the separation pay for foreign national employees (Pursuant
         to Section 151 of Public Law 102-138); and in 2010, $5,658,800 for the Copyright Licensing Division, which is
         authorized under the Copyright Act (17 U.S.C.) to collect fees to cover and pay administrative costs.

     The Federal Government does not set aside assets to pay future benefits or other expenditures associated with
     earmarked funds. The cash receipts collected from the public for an earmarked fund are deposited into the U.S.
     Treasury, which uses the cash for general Government purposes. Treasury securities are issued to the Library as
     evidence of its receipts. Treasury securities are an asset to the Library and a liability to the U.S. Treasury. Because
     the Library and the U.S. Treasury are both parts of the Government, these assets and liabilities offset each other
     from the standpoint of the Government as a whole. For this reason, they do not represent an asset or a liability in the
     U.S. Government-wide financial statements. Treasury Securities provide the Library with authority to draw upon
     the U.S. Treasury to make future expenditures. When the Library requires redemption of these securities to make
     expenditures, the Government finances those expenditures out of accumulated cash balances, by raising taxes or




42
                                                                         Notes to the Consolidated Financial Statements


other receipts, by borrowing from the public or repaying less debt, or by curtailing other expenditures. This is the
same way the Government finances all other expenditures.

Fiscal data as of, and for the year ended September 30, 2010 is summarized below. Intra-agency transactions have
not been eliminated in the amounts presented below.

                                                                          (in thousands)
                                        Offsetting        Public                             Other        Total
                                                                           Gift and
               FY 2010                  Collections      Revolving
                                                                          TFB Funds
                                                                                           Earmarked    Earmarked
                                          Funds           Funds                              Funds        Funds
Balance Sheet:
 Fund Balance with Treasury             $    18,905 $          7,760 $         14,442 $         1,233 $        42,340
 Investments in U.S. Treasury
                                                   0                 0         37,056              67          37,123
 Securities
 Other Assets                                10,678              757          106,138               0        117,573
Total Assets                            $    29,583 $          8,517 $        157,636 $         1,300 $      197,036

 Liabilities                       $          5,575 $          4,748 $          1,499 $             0 $       11,822
 Cumulative Results of Operations            24,008            3,769          156,137           1,300        185,214
Total Liabilities and Net Position $         29,583 $          8,517 $        157,636 $         1,300 $      197,036

Statement of Net Cost:
  Program Costs                         $     34,048 $          9,896 $        15,053 $          5,715 $       64,712
  Less: Earned Revenue                      (31,354)          (9,082)          (1,185)         (5,659)       (47,280)
Net Cost of Operations                  $      2,694 $            814 $        13,868 $             56 $       17,432

Statement of Changes in Net
Position:
Net Position, Beginning                 $    24,340 $          3,336 $ 144,772 $                1,071 $      173,519
  Net Cost                                   (2,694)           (814)   (13,868)                  (56)        (17,432)
  Non-Exchange Revenues and
                                                   0                 0         16,656               8          16,664
  Donation Receipts
  Other Financing Sources                     2,362            1,247            8,577             277         12,463
Change in Net Position                        (332)              433           11,365             229         11,695
Net Position, Ending                    $    24,008 $          3,769 $        156,137 $         1,300 $      185,214




                                                                                                                        43
Notes to the Consolidated Financial Statements



     Fiscal data as of, and for the year ended September 30, 2009 is summarized below.

                                                                            (in thousands)
                                           Offsetting        Public                            Other       Total
                                                                             Gift and
                   FY 2009                 Collections      Revolving
                                                                            TFB Funds
                                                                                             Earmarked   Earmarked
                                             Funds           Funds                             Funds       Funds
     Balance Sheet:
      Fund Balance with Treasury           $     17,908 $         7,590 $        14,160 $         1,005 $    40,663
      Investments in U.S. Treasury
                                                      0                 0        36,919             66       36,985
      Securities
      Other Assets                               11,417             707          94,792               0     106,916
     Total Assets                          $     29,325 $         8,297 $       145,871 $         1,071 $   184,564

      Liabilities                       $         4,985 $         4,961 $         1,099 $             0 $    11,045
      Cumulative Results of Operations           24,340           3,336         144,772           1,071     173,519
     Total Liabilities and Net Position $        29,325 $         8,297 $       145,871 $         1,071 $   184,564

     Statement of Net Cost:
       Program Costs                       $     34,645 $         9,897 $        17,498 $           69 $      62,109
       Less: Earned Revenue                    (30,932)         (8,774)           (906)              0      (40,612)
     Net Cost of Operations                $      3,713 $         1,123 $        16,592 $           69 $      21,497

     Statement of Changes in Net
     Position:
     Net Position, Beginning               $    26,156 $          3,248 $      146,878       $    1,036 $   177,318
       Net Cost                                 (3,713)         (1,123)        (16,592)            (69) $   (21,497)
       Non-Exchange Revenues and
                                                      0                 0        16,119              2       16,121
       Donation Receipts
       Other Financing Sources                    1,897           1,211         (1,633)             102        1,577
       Change in Net Position                   (1,816)              88         (2,106)              35      (3,799)
     Net Position, Ending                  $     24,340 $         3,336 $       144,772 $         1,071 $   173,519




44
                                                                      Notes to the Consolidated Financial Statements



     NOTE 19                BUDGETARY RESOURCES

 Budgetary resources are classified as follows:

                                                                    (in thousands)
                                                 FY 2010                                     FY 2009
                                                   Non-                                        Non-
                                Appropriated                                   Appropriated
                                                Appropriated     Combined                   Appropriated     Combined
                                  Capital                                        Capital
                                                  Capital                                     Capital
Budgetary Resources:
Unobligated Balance, Brought
                                $     42,871    $    1,248,129 $ 1,291,000     $      21,682 $   1,251,940 $ 1,273,622
Forward, October 1
Recoveries of Prior-Year
                                      19,143           15,289        34,432           11,649       10,001        21,650
Obligations
Budget Authority:
 Appropriation                       643,337           24,001       667,338          607,096      286,320       893,416
 Spending Authority from
 Offsetting Collections:
  Earned:
   Collected                             281          150,712      150,993               403      132,120       132,523
   Change in Receivables
                                       (242)            1,037           795              349         (170)          179
   from Federal Sources
  Change in Unfilled
  Customer Orders:
   Advances Received                       0           (3,808)      (3,808)                0        2,939         2,939
   Without Advances from
                                           0            (767)         (767)                0        3,726         3,726
   Federal Sources
 Expenditure Transfers from
 Trust Funds
Subtotal Budget Authority            643,376          171,175       814,551          607,848      424,935     1,032,783
Nonexpenditure Transfers, Net         (1,137)               0        (1,137)          (2,411)         560        (1,851)
Temporarily Not Available
                                                                                           0            0               0
Pursuant to Public Law
Permanently Not Available             (7,190)                       (7,190)           (5,061)         (29)      (5,090)
Total Budgetary Resources       $    697,063    $    1,434,593 $ 2,131,656     $     633,707 $   1,687,407 $ 2,321,114

Status of Budgetary
Resources:
Obligations Incurred:
  Direct                        $    671,168    $    1,205,636 $ 1,876,804     $     590,836 $    301,494 $   892,330
  Reimbursable                                         164,782     164,782                        137,784     137,784
Total Obligations Incurred           671,168         1,370,418   2,041,586           590,836      439,278   1,030,114
Unobligated Balance (Exempt
                                       7,941           63,275        71,216           29,437     1,247,231    1,276,668
from Apportionment)
Unobligated Balance – Not
                                      17,954              900        18,854           13,434          898        14,332
Available
Total Status of Budgetary
                                $    697,063    $    1,434,593 $ 2,131,656     $     633,707 $   1,687,407 $ 2,321,114
Resources




                                                                                                                            45
Notes to the Consolidated Financial Statements



                                                                           (in thousands)
                                                      FY 2010                                        FY 2009
                                                        Non-                                           Non-
                                     Appropriated                                      Appropriated
                                                     Appropriated      Combined                     Appropriated            Combined
                                       Capital                                           Capital
                                                       Capital                                        Capital
     Change in Obligated
     Balance:
     Unpaid Obligated Balance,
     Net, Brought Forward,
     October 1:
      Unpaid Obligations, Brought
                                     $     207,917   $       70,096 $      278,013      $    212,578 $            68,722 $      281,300
      Forward
      Less: Uncollected Customer
                                             (490)         (12,002)       (12,492)               (141)            (8,446)          (8,587)
      Payments, Brought Forward
     Total Unpaid Obligation
                                           207,427           58,094        265,521           212,437              60,276        272,713
     Balance, Net
      Obligations Incurred, net            671,168         1,370,418      2,041,586           590,836             439,278      1,030,114
      Less: Gross Outlays                (637,186)       (1,349,504)    (1,986,690)         (583,848)           (427,903)    (1,011,751)
      Less: Recoveries of Prior-
                                          (19,143)         (15,289)       (34,432)           (11,649)            (10,001)      (21,650)
      Year Unpaid Obligations
      Change in Uncollected
      Customer Payments from                  242             (271)            (29)              (349)            (3,556)          (3,905)
      Federal Sources
     Total Unpaid Obligated
     Balance, Net:
      Unpaid Obligations                   222,756           75,721        298,477           207,917              70,096        278,013
      Less: Uncollected Customer
      Payments from Federal                  (248)         (12,273)       (12,521)               (490)           (12,002)      (12,492)
      Sources
     Total Unpaid Obligated
                                     $    222,508    $       63,448 $      285,956      $    207,427 $            58,094 $      265,521
     Balance, Net, End of Period

     Net Outlays:
      Gross Outlays                  $     637,186   $    1,349,504 $ 1,986,690         $    583,848 $            427,903 $ 1,011,751
      Less: Offsetting Collections           (281)        (146,904)   (147,185)                (403)            (135,059)   (135,462)
      Less: Distributed Offsetting
                                                0            (1,471)        (1,471)                     0         (6,404)          (6,404)
      Receipts
     Total Net Outlays               $     639,905   $    1,201,129 $ 1,838,034         $    583,445 $           286,440 $      869,885

      For TFB funds, approximately $10.1 and $10.0 million of unobligated authority for fiscal years 2010 and 2009,
      respectively, at the donor’s request, is restricted from being spent on program costs (income from investing
      restricted donations under the Library’s Total Return Policy can be spent on program costs). These amounts are
      invested either in the permanent loan or in Treasury securities. An additional $73.9 and $79.0 million of restricted
      authority has been obligated and expended to invest in non-Treasury securities for the fiscal years 2010 and 2009,
      respectively.

      Undelivered orders, end of period:

                                                                                                (in thousands)
                                                                                      FY 2010                    FY 2009
            Paid                                                              $                 1,319       $                558
            Unpaid                                                                          217,096                     206,887
            TOTAL                                                             $             218,415         $           207,445




46
                                                                   Notes to the Consolidated Financial Statements



                     RECONCILIATION OF NET COST OF
  NOTE 20
                     OPERATIONS TO BUDGET
                                                                                              (in thousands)
                                                                                         FY 2010         FY 2009
RESOURCES USED TO FINANCE ACTIVITIES
  Budgetary Resources Obligated:
     Obligations Incurred                                                            $    2,041,586 $      1,030,114
     Less: Spending Authority from Offsetting Collections and Recoveries                  (181,645)        (161,017)
     Obligations Net of Offsetting Collections and Recoveries                             1,859,941          869,097
     Less: Distributed Offsetting Receipts                                                   (1,471)          (6,404)
     Net Obligations                                                                      1,858,470          862,693
  Other Resources:
     Donations of Property and Services                                                       42,516             44,025
     Imputed Financing from Costs Absorbed by Others                                        102,710              92,066
     Exchange Revenue not in the Budget                                                          103                 48
     Non-exchange Revenue not in the Budget                                                    (579)            (1,315)
     Trust/Special Fund Exchange Revenue Receipts                                            (7,444)              (305)
     Other Resources (+/-)                                                                     4,559            (2,667)
  TOTAL RESOURCES USED TO FINANCE ACTIVITIES                                              2,000,335            994,545

RESOURCES USED TO FINANCE ITEMS NOT PART OF NET COST OF OPERATIONS
  Change in Budgetary Resources Obligated for Goods, Services, and Benefits                  (9053)             16,259
  Ordered but Not Yet Provided (+/-)
  Resources that Fund Expenses Recognized in Prior Period                                         0               (868)
  Resources that Finance the Acquisition of Assets                                              291            (23,500)
  Budgetary Offsetting Receipts that do not Affect Net Cost of Operations                     1,471               6,404
  Other Resources or Adjustments to Net Obligated Resources that do not Affect Net
                                                                                             (6,835)            (1,524)
  Cost of Operations (+/-)
  Fiduciary Obligations Net of Offsetting Collections and Recoveries                     (1,180,443)       (276,649)
  TOTAL RESOURCES USED TO FINANCE ITEMS NOT PART OF THE NET COST OF
                                                                                         (1,194,569)       (279,878)
  OPERATIONS

TOTAL RESOURCES USED TO FINANCE THE NET COST OF OPERATIONS                                  805,766            714,667

COMPONENTS OF THE NET COST OF OPERATIONS THAT WILL NOT REQUIRE OR
GENERATE RESOURCES IN THE CURRENT PERIOD
   Components Requiring or Generating Resources in Future Periods:
      Increase in Annual Leave Liability and Actuarial Liability                              1,507              2,178
      Other                                                                                       0                  0
   Total Components Requiring or Generating Resources in Future Periods                       1,507              2,178
   Components not Requiring or Generating Resources:
      Depreciation and Amortization                                                          14,395             15,853
      Revaluation of Assets or Liabilities                                                 (18,684)              3,717
      Other Costs not Requiring or Generating Budgetary Resources (+/-)                           5                 32
   Total Components not Requiring or Generating Resources                                   (4,284)             19,602
TOTAL COMPONENTS OF THE NET COST OF OPERATIONS THAT WILL NOT REQUIRE
                                                                                             (2,777)            21,780
OR GENERATE RESOURCES IN THE CURRENT PERIOD


NET COST OF OPERATIONS                                                               $      802,989 $          736,447




                                                                                                                          47
Notes to the Consolidated Financial Statements



        NOTE 21              Fiduciary Activity and Net Assets (See Note 1.R)

     SFFAS No. 31, “Accounting for Fiduciary Activities,” effective October 1, 2009, defines “fiduciary activity” as
     those Federal Government activities that relate to the collection or receipt, and the subsequent management,
     protection, accounting, investment and disposition of cash or other assets in which non-Federal parties have an
     ownership interest that the Federal Government must uphold.

     Fiduciary assets are not assets of the Library of Congress. Beginning in FY 2009, the Library’s Balance Sheet,
     Statement of Net Cost and Statement of Net Position no longer included the results of operations and financial
     position of its funds identified as “fiduciary activities.” The adoption of SFFAS No. 31 had no effect on the
     Statement of Budgetary Resources (SBR) and the budgetary activities and balances related to the fiduciary activity
     remained in the SBR during FY 2009. During FY 2010, as authorized by OMB and the Treasury Department, the
     Library transferred all Copyright Licensing net assets from a Special Fund (in Budget) to a Deposit Fund (non-
     Budget) by a budgetary outlay out of the Special Fund in the amount of $1.2 billion. At the end of FY 2010, there
     was no remaining Unobligated Balance in the SBR for the Copyright Licensing Special Fund. All fiduciary activity
     will now occur in the non-Budget Deposit Fund and beginning in FY 2011, there will be no fiduciary activity or
     Unobligated Balance reflected in the SBR for the Copyright Licensing Fiduciary Deposit Fund.

     The Library of Congress Copyright Office Licensing Division administers the compulsory and statutory licenses
     covered by the Copyright Act (17 U.S.C.). The Licensing Division receives royalty fees from cable television
     operators for retransmitting television and radio broadcasts, from satellite carriers for retransmitting "super station"
     and network signals, and from importers and manufacturers for distributing digital audio recording technologies
     (DART). Refunds may arise when a cable, satellite, or DART remitter inadvertently overpays or is otherwise
     entitled to a refund. Additional royalty fees may also be requested from the remitter when necessary. The Licensing
     Division invests the licensing royalty fees in market-based U.S. Treasury notes and bills. Because these investments
     are held in a fiduciary capacity for the copyright owners, income does not accrue to the Library's benefit.

     Controversies regarding the distribution of the royalties are resolved by the Copyright Royalty Board (CRB), which
     is composed of three Copyright Royalty Judges and their staff. The CRB has full jurisdiction over setting royalty
     rates and terms and determining distributions. Decisions may be appealed to the United States Court of Appeals for
     the District of Columbia Circuit.

     Investments - Copyright royalties collected by the Copyright Office on behalf of copyright owners are invested, net
     of service fees, in U.S. Treasury securities. Treasury securities are intended to be held to maturity, are valued at cost
     and are adjusted for the amortization of discounts and premiums. Interest is computed using the straight-line
     method, which approximates the effective interest method. These investments will be held until distributions are
     made to copyright owners. Income accrues to the benefit of the copyright owners.

     Intragovernmental Investments
     Non-marketable, market-based securities are Treasury notes and bills issued to governmental accounts that are not
     traded on any securities exchange, but mirror the prices of marketable securities with similar terms.
     Fiduciary funds investment maturity dates for fiscal year 2010 and 2009 range from October 21 to August 31 2011
     and October 15 to August 31, 2010 respectively interest rates for fiscal year 2010 and 2009 range from .012 percent
     to 4.875 percent and .002 percent to 2.75 percent respectively.




48
                                                                  Notes to the Consolidated Financial Statements


Fiduciary Activity consists of the following:

                                                                               (in thousands)
                                                                         FY 2010            FY 2009
     Beginning Fiduciary Net Assets                                 $       1,183,263 $                0
       Implementation of SFFAS#31 (See Note 1.R)                                     0        1,193,780
     Adjusted Beginning Fiduciary Net Assets                                1,183,263          1,193,780
       Licensing Fees                                                         275,619            262,104
       Investment Earnings                                                        809              4,028
       Gain (Loss) on Disposition of Investments, Net                                0                 0
     Total Net Inflows to Fiduciary Net Assets                                276,428            266,132
       Payments to Copyright Owners                                         (249,269)          (272,871)
       Refunds of Licensing Fees                                               (1,373)             (858)
       Retained by Copyright Licensing for Administrative Costs                (5,659)            (2,920)
     Total Outflows from Fiduciary Net Assets                               (256,301)          (276,649)

     Subtotal Net Fiduciary Activity                                           20,127           (10,517)
     ENDING FIDUCIARY NET ASSETS                                     $      1,203,390 $        1,183,263


Net Fiduciary Assets consist of the following:

                                                                               (in thousands)
                                                                         FY 2010            FY 2009
     Fiduciary Assets
        Fiduciary Fund Balance with Treasury                        $           3,480 $              627
        Investments in U.S. Treasury Securities                             1,199,560          1,182,273
        Accrued interest from U.S. Treasury Securities                            350                363
        Other Assets                                                                                   0
        Less: Accounts Payable                                                                         0
     TOTAL FIDUCIARY NET ASSETS                                     $       1,203,390 $        1,183,263




                                                                                                             49
Management Report


                                   THE LIBRARY OF CONGRESS
                                                 Management Report
                                             Fiscal Year Ended September 30, 2010




                                    Assessment of Condition of Heritage Assets
     The Library has the world's largest library collection, including research materials in over 470 languages and various
     media. Providing access to this collection inevitably puts it at risk and could impair the Library's ability to serve the
     Congress and other users in the future. However, the collections exist to be used, and management accepts the
     responsibility of mitigating risk to the collections at the same time it fulfills its mission of service to the Congress
     and the nation. Therefore, the Library has chosen to balance the usage of the collection with the long-term
     preservation requirements of the collections.

     As of September 30, 2010, the collections were determined to be in a useable condition for fulfilling its service
     mission. During fiscal year 2010, only a very small percentage of materials were removed from the collection
     because of damage caused by use and/or deterioration of the medium. The ultimate useful life of a library item
     varies by its medium (e.g., book, film, tape, manuscript, disk), and the manner in which it is used and stored.

     The Library employs a variety of methods to prolong the useful life of its deteriorating materials, including:

             The establishment of adequate environmental storage conditions
             The usage of binding or other methods to house items
             The mass deacidification of print materials
             The use of surrogates in serving the collections to the public
             The reformatting of collections to other media

     The Library has inadequate temperature and humidity control in some collections storage areas; inadequate space for
     appropriate storage of collections materials; insufficient space for reformatting the acetate negative collection; and
     insufficient funds for reformatting. These conditions cannot be fully addressed with current funds and physical plant.
     The move of collections into the storage facility at Ft. Meade, Maryland, is serving to remedy many of these
     difficulties for books and paper-based materials, and the acquisition of the Packard Campus for Audio-Visual
     Conservation in Culpeper, Virginia, was a major step in the preservation of film and other media.




50
                   UNITED STATES GOVERNMENT                                     LIBRARY OF CONGRESS
                   Memorandum                                                    Office of the Inspector General


TO:                James H. Billington                                                March 21, 2011 
                   Librarian of Congress 
                    
FROM:              Karl W. Schornagel       
                   Inspector General                           
 
SUBJECT:           Results of the Library of Congress FY 2010 Financial Statements Audit 
   
  The attached report presents the results of the annual audit of the Library of Congress financial 
  statements for fiscal years (FY) 2010 and 2009. 
   
  We contracted with the independent certified public accounting firm of Kearney & Company 
  (Kearney) for the audit.  The contract required that the audit be performed in accordance with U.S. 
  generally accepted government auditing standards; the Office of Management and Budget Bulletin 
  07‐04, Audit Requirements for Federal Financial Statements; and the GAO/PCIE Financial Audit Manual. 
   
  Results of Independent Audit 
   
  Financial Statements 
   
  For the fifteenth consecutive year, we are pleased to report that the auditors issued an unqualified 
  opinion on the Library’s financial statements.  In its audit, Kearney found that the financial 
  statements were fairly presented, in all material respects, in conformity with U.S. generally 
  accepted accounting principles. 
   
  Report on Internal Controls 
   
  Kearney’s consideration of internal controls over financial reporting (including the safeguarding of 
  assets) found no material weaknesses or significant deficiencies. 1 
   
   

1
  A material weakness is a deficiency, or combination of deficiencies, in internal control, such that there is a reasonable
possibility that a material misstatement of the Library’s financial statements will not be prevented, or detected and
corrected on a timely basis. A significant deficiency is a deficiency, or combination of deficiencies, in internal control
that is less severe than a material weakness, yet important enough to merit attention by those charged with governance.
A deficiency in internal control exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent, or detect and correct misstatements
on a timely basis.


                                                                                                                          51
      Compliance with Laws and Regulations 
      
     Kearney found no instances of noncompliance with laws and regulations tested. 
      
     Office of the Inspector General Oversight of Kearney 
      
     In connection with the audit contract, the Office of the Inspector General reviewed Kearney’s report 
     and related documentation and inquired of its representatives.  Our review, as differentiated from 
     an audit in accordance with U.S. generally accepted government auditing standards, was not 
     intended to enable us to express, and we do not express, opinions on the Library’s financial 
     statements, conclusions about the effectiveness of internal controls, and compliance with laws and 
     regulations.  Kearney is responsible for the attached auditor’s report dated February 9, 2011 and the 
     conclusions expressed in the report. 2   However, our review disclosed no instances where Kearney 
     did not comply in all material respects with generally accepted government auditing standards.   
      
      
      
      
     cc:   Chief of Staff 
             Chief Financial Officer 
      
      
      
              




     2
       In accordance with generally accepted auditing standards, Kearney’s report is dated as of the last day of their audit
     fieldwork. Kearney’s final report was delivered to the Office of the Inspector General on March 18, 2011.


52
                                                           1701 Duke Street, Suite 500, Alexandria, VA 22314
                                                           PH: 703.931.5600, FX: 703.931.3655, www.kearneyco.com




                           INDEPENDENT AUDITOR’S REPORT


Office of the Inspector General
Library of Congress


We have audited the accompanying consolidated balance sheets of the Library of Congress (the
Library) as of September 30, 2010 and 2009, and the related consolidated statements of net cost,
statements of changes in net position, and combined statements of budgetary resources for the
years then ended. These financial statements are the responsibility of the Library’s management.
Our responsibility is to express an opinion on these financial statements based on our audits.

SUMMARY

As stated in our opinion on the financial statements, we concluded that the Library’s financial
statements for the years ended September 30, 2010 and 2009, are presented fairly, in all material
respects, in conformity with accounting principles generally accepted in the United States of
America (GAAP).

Our consideration of internal control over financial reporting (including the safeguarding of
assets) disclosed no significant deficiencies or material weaknesses.

The results of our tests of compliance with certain provisions of laws and regulations disclosed
no instances of noncompliance that are required to be reported herein under Government
Auditing Standards issued by the Comptroller General of the United States.

The following sections discuss our opinion on the Library’s financial statements, our
consideration of the Library’s internal control over financial reporting, our tests of the Library’s
compliance with certain provisions of applicable laws and regulations, and Library
management’s and our responsibilities.

OPINION ON THE FINANCIAL STATEMENTS

We have audited the accompanying consolidated balance sheets of the Library as of September
30, 2010 and 2009, and the related consolidated statements of net cost and changes in net
position, and combined statements of budgetary resources for the years then ended. These
financial statements are the responsibility of the Library’s management. Our responsibility is to
express an opinion on these financial statements based on our audits.

We conducted our audit in accordance with auditing standards generally accepted in the United
States of America; the standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States; and Office of Management



                                                                                                                   53
     and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as
     amended. Those standards require that we plan and perform the audit to obtain reasonable
     assurance about whether the financial statements are free of material misstatement. An audit
     includes examining, on a test basis, evidence supporting the amounts and disclosures in the
     financial statements. An audit also includes assessing the accounting principles used and
     significant estimates made by management, as well as evaluating the overall financial statement
     presentation. We believe that our audits provide a reasonable basis for our opinion.

     In our opinion, the financial statements referred to above present fairly, in all material respects,
     the financial position of the Library as of September 30, 2010 and 2009, and its net cost of
     operations, changes in net position, and budgetary resources, including accompanying notes, for
     the years then ended, in conformity with GAAP.

     The Library’s Management’s Discussion and Analysis, other Required Supplementary
     Information, and other accompanying information contain a wide range of information, some of
     which is not directly related to the financial statements. The information contained in the
     Management’s Discussion and Analysis and Stewardship Report is not a required part of the
     Library’s financial statements, but is considered supplementary information required by OMB
     Circular No. A-136, Financial Reporting Requirements. We do not express an opinion on this
     information. However, we compared this information for consistency with the financial
     statements and discussed the methods of measurement and presentation with the Library. On the
     basis of this limited work, we found no material inconsistencies with the financial statements,
     GAAP, or OMB Bulletin No. 07-04, as amended.

     INTERNAL CONTROL OVER FINANCIAL REPORTING

     In planning and performing our audit, we considered the Library’s internal control over financial
     reporting and compliance by obtaining an understanding of the design effectiveness of the
     Library’s internal control, determining whether these controls had been placed in operation,
     assessing control risk, and performing tests of the Library’s controls as a basis for designing our
     auditing procedures for the purpose of expressing our opinion on the financial statements and not
     to provide an opinion on the internal controls. Accordingly, we do not express an opinion on the
     effectiveness of the Library’s internal control over financial reporting and compliance.

     We limited our control testing to those controls necessary to achieve the following OMB Bulletin
     No. 07-04 control objectives that provide reasonable, but not absolute assurance, that:

        1. Transactions are properly recorded, processed, and summarized to permit the preparation
           of the financial statements in accordance with GAAP, and assets are safeguarded against
           loss from unauthorized acquisition, use, or disposition
        2. Transactions are executed in compliance with laws governing the use of budget authority;
           Government-wide policies and laws identified in Appendix E of OMB Bulletin No. 07-
           04, as amended; and other laws and regulations that could have a direct and material
           effect on financial statements. We did not test all internal controls relevant to the
           operating objectives as broadly defined by the Federal Financial Management
           Improvement Act, such as those controls relevant to ensuring efficient operations.



54
A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent or detect and correct misstatements on a timely basis. A material weakness is a
deficiency or combination of deficiencies in internal control, such that there is a reasonable
possibility that a material misstatement of the Library’s financial statements will not be
prevented or detected and corrected on a timely basis. A significant deficiency is a deficiency or
combination of deficiencies in internal control that is less severe than a material weakness, yet
important enough to merit attention by those charged with governance.

Our consideration of internal control over financial reporting was for the limited purpose
described in the preceding paragraphs, and was not designed to identify all deficiencies in internal
control that might be deficiencies, significant deficiencies, or material weaknesses. We did not
note any deficiencies in internal control that we consider to be material weaknesses or significant
deficiencies, as defined above.

During the audit, we noted certain other matters that we will report to the Library’s management
in a separate letter, dated February 9, 2011.

COMPLIANCE AND OTHER MATTERS

As part of obtaining reasonable assurance about whether the Library’s financial statements are
free of material misstatement, we performed tests of the Library’s compliance with certain
provisions of laws and regulations, noncompliance with which could have a direct and material
effect on the determination of financial statement amounts and certain other laws and regulations
specified in OMB Bulletin No. 07-04, as amended. We limited our tests of compliance to these
provisions; we did not test compliance with all laws and regulations applicable to the Library.
Providing an opinion on compliance with certain provisions was not an objective of our audit,
and accordingly, we do not express such an opinion.

The results of our testing disclosed no instances of noncompliance as described in the preceding
paragraph, and disclosed no instances of noncompliance that would be reportable under
standards applicable to financial audits contained in Government Auditing Standards and OMB
Bulletin No. 07-04, as amended.

                                 *       *       *      *       *




                                                                                                       55
     This report is intended solely for the information and use of the Library’s Office of Inspector
     General, Library management, those charged with governance, OMB, the Government
     Accountability Office, and Congress, and is not intended to be, and should not be, used by
     anyone other than these specified parties.




     February 9, 2011
     Alexandria, Virginia




56
